Semiannual Report to the Congress
                  April 1, 2004 – September 30, 2004
                                         Volume 52




               Office of Inspector General
                U.S. Department of Labor
     A Message from the
      Inspector General

I am pleased to transmit this Semiannual Report to the Congress, which summarizes significant
audit and investigative activities performed by the Office of Inspector General (OIG) from April 1
through September 30, 2004. During that time, the OIG issued 67 audits relating to Department
of Labor (DOL) programs and operations, most of which can be viewed on our Web site at
www.oig.dol.gov. We identified $10.5 million in questioned costs and $15 million in other audit
monetary recommendations. In addition, we closed 228 investigations, achieved 297
indictments, 186 convictions, and $103 million in investigative monetary accomplishments.

During this period, the OIG completed significant work related to pension and employee benefit
plans. An OIG audit found that the Employee Benefits Security Administration has not been
successful in correcting substandard benefit plan audits intended to protect plan participants’
interests because it has insufficient legislative authority to hold auditors accountable. Among the
results of our benefit plan investigations were guilty pleas by a union attorney and his associate
on charges that included accepting and making bribes to influence the operation of a benefit
plan.

Other accomplishments over the last six months included audits and investigations related to
Unemployment Insurance. An OIG audit found that 12 states were not using an effective
method for detecting overpayments that involves comparing claims against new-hire data to
identify claimants who have returned to work but continue to collect benefits. Our investigations
resulted in the indictment and conviction of criminals who used stolen identities to unlawfully
apply for and obtain millions in unemployment insurance benefits.

In the area of employment and training, OIG audits questioned more than $8 million in costs
charged to a Florida Welfare-to-Work formula grant. We also identified significant problems with
an influx of Permanent Foreign Labor Certification applications submitted at a time when
applications could be filed on behalf of alien workers already residing in the United States. This
prompted concerns that applications that should be denied are being certified.

Our efforts to help the Department maintain an effective management process also resulted in
key audit findings. We found that DOL had not established adequate management controls over
its equity interest in State Workforce Agencies’ real property and that real property equity in four
states was understated by $30 million. We also identified vulnerabilities in DOL’s management
of the migration of its payroll processing to the National Finance Center as part of an effort to
consolidate Federal civilian payroll services.

Among the results of our labor racketeering investigations was the sentencing of the former
president of the International Longshoremen’s Association Local 1588 for conspiring to
embezzle union funds. In addition, a member of a Laborers International Union of North
America Local pled guilty to RICO conspiracy charges involving a violent scheme using actual
and threatened force, destruction of property, and other means of extortion against businesses.

The OIG remains committed to promoting the economy, integrity, effectiveness, and efficiency
of DOL programs and detecting waste, fraud, and abuse against those programs. We will
continue to work constructively with the Secretary of Labor and DOL managers to ensure that
the rights and benefits of American workers and retirees are safeguarded.



Gordon S. Heddell
Inspector General
         Table of Contents

Selected Statistics.........................................................................................................................2
Significant Concerns .....................................................................................................................3


Employment and Training
Foreign Labor Certification............................................................................................................6
Workforce Investment Act.............................................................................................................9
Welfare-to-Work..........................................................................................................................10
Job Corps....................................................................................................................................11
Tax Credit Programs...................................................................................................................12
Trade Adjustment Assistance Program ......................................................................................13

Worker Benefits Programs
Employee Benefits Security Administration ................................................................................14
Unemployment Insurance ...........................................................................................................16
Federal Employees’ Compensation Act......................................................................................19

Worker Safety, Health, and Workplace Rights
Davis-Bacon Act .........................................................................................................................21

Departmental Management
e-Payroll Initiative........................................................................................................................22
Real Property ..............................................................................................................................23
Information Technology ..............................................................................................................25
Employee Integrity Investigations ...............................................................................................29

Labor Racketeering
Benefit Plan Investigations..........................................................................................................31
Internal Union Investigations.......................................................................................................32
Labor-Management Investigations..............................................................................................35

Legislative Recommendations ....................................................................................................37
Appendix .....................................................................................................................................40




Semiannual Report to the Congress                                                                                                             1
April 1, 2004–September 30, 2004
                                                                  For the Period April 1, 2004–September 30, 2004
         Selected Statistics


Selected Statistics


Investigative recoveries, cost-efficiencies, restitutions,
fines and penalties, forfeitures, and civil monetary action ..................................... $103 million

Investigative cases opened................................................................................................. 191

Investigative cases closed .................................................................................................. 228

Investigative cases referred for prosecution ....................................................................... 296

Investigative cases referred for administrative/civil action .................................................... 76

Indictments.......................................................................................................................... 297

Convictions ......................................................................................................................... 186

Debarments .......................................................................................................................... 63




Audit and evaluation reports issued...................................................................................... 67

Total questioned costs .......................................................................................... $10.5 million

Other audit monetary impact.................................................................................... $15 million

Outstanding questioned costs resolved during this period ................................... $11.2 million
   Allowed1 ............................................................................................................ $3.5 million
   Disallowed2 ....................................................................................................... $7.7 million




Note: The OIG conducts criminal investigations of individuals that can lead to prosecutions based on criminal
complaints, warrants, informations, indictments, or pretrial diversion agreements. Successful prosecutions may carry
sentences such as fines, restitutions, forfeitures, or other monetary penalties. The OIG financial accomplishments,
which include administrative and civil actions, are further detailed and defined in the Appendix of this report.

1
 Allowed means a questioned cost that DOL has not sustained.
2
 Disallowed means a questioned cost that DOL has sustained or has agreed should not be charged to the
  government.




Semiannual Report to the Congress                                                                                                           2
April 1, 2004–September 30, 2004
      Significant Concerns


Significant Concerns
                       The OIG works with the Department and Congress to provide information and
                       assistance in achieving efficient and effective management of DOL programs.
                       As part of our effort to focus attention on mission-critical management
                       problems and their resolution, the OIG has identified the following areas that
                       we consider vulnerable to mismanagement, error, fraud, waste, or abuse.

         Benefit Plan Safeguards
                       Among existing safeguards on employee benefit plans are the annual plan
                       audits required under the Employee Retirement Income Security Act
                       (ERISA). These audits help protect plan participants and beneficiaries by
                       ensuring the proper value of assets and the proper computation of benefits.
                       The OIG has long-standing concerns about the quality and scope of these
                       audits, an unacceptably high number of which do not meet professional
                       standards. A recent OIG audit found that when DOL’s Employee Benefits
                       Security Administration (EBSA) detects deficiencies in plan audits, it has not
                       been effective in correcting them, largely because it lacks sufficient authority
                       to do so. We therefore recommended that DOL seek changes to ERISA that
                       would allow EBSA to correct audits and ensure that auditors with poor
                       records do not perform additional plan audits. We also continue to support
                       the repeal of ERISA’s limited-scope provision, which exempts pension assets
                       invested in banks, savings and loans, and insurance companies, from plan
                       audits.
                       In addition, OIG investigations continue to show that assets in Taft-Hartley
                       plans, jointly administered by labor union and management representatives,
                       are vulnerable to multimillion-dollar abuses by plan service providers.

         Certifications Under the Permanent Labor Certification Program
                       The OIG is concerned about the abuse of DOL foreign labor certification
                       programs, which may result in the unlawful admission of foreign nationals and
                       economic hardship for domestic workers. Our recent audit work on the
                       Permanent Foreign Labor Certification program has focused on an influx of
                       employer applications created by a December 2000 amendment to the
                       Immigration and Nationality Act. For a four-month period ending April 30,
                       2001, the amendment permitted foreign labor certification applications to be
                       filed for alien workers already in the United States, resulting in a 450%
                       increase in applications filed over the prior year. Based on our audit work, we
                       are concerned that these and other backlogged applications are being
                       approved, despite the fact that many of the alien applicants did not have legal
                       status to work in the United States or were already working for the employer
                       when the application was submitted. More broadly, the OIG is concerned that
                       the Department’s role in the labor certification process as a whole adds little
                       value to the process of protecting American jobs and workers, and our
                       investigations continue to identify fraud against these programs by
                       immigration attorneys and labor brokers.



Semiannual Report to the Congress                                                                     3
April 1, 2004–September 30, 2004
      Significant Concerns

         Systems Planning and Development
                       Recent OIG audit work has raised concerns that insufficient planning and
                       program management have hampered the development of efficient, effective
                       systems to perform the day-to-day business of the Department. For example,
                       under the e-Payroll initiative, designed to consolidate Federal civilian payroll
                       services, the Department’s payroll processing will migrate to the National
                       Finance Center. An ongoing OIG audit identified vulnerabilities in the
                       Department’s management of the payroll migration, including insufficient
                       project planning, data validation, user involvement, and parallel testing. An
                       audit of the redesign of a mission-critical Occupational Safety and Health
                       Administration data system also identified weaknesses, including a project-
                       management plan that did not cover the entire redesign, uncertain funding
                       that increased the project’s risk, and lack of critical knowledge on the part of
                       the project manager. Such projects, which cost the government millions of
                       dollars each year and impact the delivery of services and the operation of the
                       Department’s business units, require long-term planning and comprehensive
                       project management to realize the benefits of the substantial investments.

         Procurement Practices
                       DOL procurement activities must comply with Federal requirements—which
                       emphasize full and open competition—and must achieve the best value for
                       the dollar. To this end, effective management controls, well-trained
                       personnel, and clear accountability are essential. Ongoing OIG audit work
                       has raised concerns about whether all DOL agencies have adhered to the
                       principle of full and open competition. Such competition involves using sole-
                       source procurements as a last, rather than a first, resort. Moreover, we are
                       finding that a lack of knowledge about procurement requirements is a major
                       cause of inappropriate procurement actions. As a result, the OIG is planning
                       an overall review of procurement in DOL. This Semiannual Report includes
                       examples of OIG investigations that identify procurement fraud, such as the
                       case of former Bureau of Labor Statistics employees who accepted bribes
                       and kickbacks from vendors in exchange for making purchases.

         Fraud Involving Identity Theft
                       To apply for benefits such as Unemployment Insurance, the name and other
                       identifying information of a beneficiary are required. Participants in other DOL
                       programs must likewise submit personal identifying or employer information.
                       The OIG is concerned that criminals are using stolen identities to apply for
                       benefits on a large scale and defraud DOL programs. In one case we
                       investigated, 10,000 stolen identities were used by a nontraditional organized
                       crime group to unlawfully apply for and obtain millions of dollars in benefits.
                       Stolen identities have also been used to create false Social Security cards,
                       obtain H1-B temporary specialty worker status, and defraud Workforce
                       Investment Act programs.




Semiannual Report to the Congress                                                                     4
April 1, 2004–September 30, 2004
      Significant Concerns


         Reducing Improper Payments
                       Improper payments in DOL-administered programs, such as Unemployment
                       Insurance (UI) and the Federal Employee Compensation Act (FECA)
                       program, include payments made in the wrong amount, or to an ineligible
                       recipient, or improperly used by the recipient. DOL projects that UI
                       overpayments by the states amount to about $4 billion annually, and
                       estimates FECA overpayments at $10 million annually. The UI system could
                       attain significant savings by detecting overpayments through cross-matching
                       UI claims against state and national new hire data, thereby identifying
                       claimants who have returned to work but are still collecting UI benefits. A
                       recent OIG audit determined that 12 states had not used their own state new
                       hire data to reduce overpayments. We recommended that DOL continue to
                       provide technical assistance and resources to help those 12 states implement
                       state new hire detection, and that the Department encourage all states to use
                       the National Directory of New Hires to help identify overpayments. The OIG is
                       also concerned about inadequate controls over medical evidence used to
                       determine continuing eligibility for FECA compensation payments, because
                       inadequate DOL procedures for obtaining and reviewing current medical
                       evidence increases the risk of improper payments.




Semiannual Report to the Congress                                                                  5
April 1, 2004–September 30, 2004
         Employment and                                                 Foreign Labor Certification
        Training Programs

Foreign Labor Certification
                       The Department’s foreign labor certification programs provide American
                       employers access to foreign labor. The Permanent Foreign Labor
                       Certification program allows an employer to hire a foreign worker to work
                       permanently in the United States. Administration of this program is the
                       responsibility of three Federal departments: Labor, Homeland Security, and
                       State.

         Permanent Foreign Labor Certification Program Workload Could
         Lead to Certification of Applications That Should Be Denied
                       The OIG audited DOL’s Permanent Foreign Labor Certification (FLC)
                       program to determine how the FLC program workload was affected by a
                       December 2000 amendment to the Immigration and Nationality Act, which
                       allowed foreign labor certification applications for alien workers already in the
                       United States. This provision was in effect for a four-month period ending
                       April 30, 2001, and resulted in a 450% increase in applications over the prior
                       year. We estimate that the amendment resulted in more than a quarter million
                       applications being filed during these four months. The influx of applications
                       created a processing backlog, which the Employment and Training
                       Administration (ETA) estimated at 315,000 through May 2004.
                       The OIG is concerned that in eliminating the backlog, many applications that
                       should be denied are being certified. We found significant problems in both
                       pending and certified applications. For applications filed during the four
                       months, we projected that:
                         • 69% of the applications were misrepresented and/or incomplete;
                         • 84% of the aliens did not have legal status to work in the United States;
                           and
                         • 67% of the aliens were already working for the employer at the time of
                           application, including 28% who had worked for the employer for more
                           than five years.
                       ETA has made a significant effort to develop labor certification applications
                       for a new automated system that will assist in automatic fraud detection. In
                       addition, all of the backlogged applications received before the system’s
                       implementation will be processed by companies contracted by ETA before
                       they are certified or denied by ETA. We recommended that ETA require that
                       the current backlog of applications be processed in accordance with
                       applicable laws and regulations. In addition, ETA needs to verify an
                       employer’s current in-business status prior to certification and refer to the
                       OIG any applications in which the employer is determined not to be a bona
                       fide employer.
                       ETA generally agreed with the report findings and noted that it is establishing
                       processing centers where the majority of permanent program backlog cases
                       will be reviewed and adjudicated. Case management software that will be
                       used in processing cases will verify an employer’s current in-business status



Semiannual Report to the Congress                                                                     6
April 1, 2004–September 30, 2004
         Employment and                                                   Foreign Labor Certification
        Training Programs

                       prior to certification. Also, ETA will continue to require that foreign labor
                       certification applications be processed in compliance with all applicable
                       statutes, regulations, and policies.
                       The OIG believes that ETA’s plan to use software in its backlog processing
                       centers to determine bona fide employers prior to certification should resolve
                       this matter when the system is operating. Also, we agree that ETA has
                       established policy regarding an alien’s qualifying experience. However,
                       although ETA may require that FLC applications be processed in compliance
                       with statutes, regulations, and policies, our audit results demonstrate that
                       those statutes, regulations, and policies were not consistently followed.
                       As a result of these findings, the OIG is reviewing numerous applications for
                       possible investigation. (OA Report No. 06-04-004-03-321, issued September
                       30, 2004)

         Leader of Visa Fraud Scheme Sentenced to Nearly
         Four Years in Prison
                       On May 25, 2004, Matar Fall was sentenced on charges of conspiracy and
                       bribery of a public official for his role in a scheme to fraudulently obtain Social
                       Security numbers. Fall sold altered work visas and immigration documents for
                       $300 to $1,500, which aliens would then use to apply for Social Security
                       cards. He is one of 28 defendants to be sentenced to date; he received three
                       years and 10 months in prison and three years’ probation. From April 1999
                       through November 2002, the defendants conspired to produce, transfer, and
                       possess approximately 2,000 Social Security cards. Other defendants acted
                       as middlemen and marketers, referring aliens to Fall or helping to obtain false
                       documents from him to assist the aliens in their applications. The case was
                       jointly investigated with the Social Security Administration (SSA) OIG, the
                       Bureau of Immigration and Customs Enforcement (BICE), and the U.S.
                       Postal Inspection Service. U.S. v. Fall, et al. (N.D. Georgia)

         Five Defendants Sentenced and One Pleads Guilty in Visa and
         WIA Fraud Schemes
                       After pleading guilty in January 2004 to charges of conspiracy to commit visa
                       fraud, Andre Kolomitsyev, Yuri Detrojan, Yuri Matsiouk, Igor Kratsov, and
                       Peter Graf were sentenced for their roles in a sophisticated scheme that
                       involved falsifying and creating driver’s licenses and H-1B visas. The group
                       used the documents to embezzle approximately $1.4 million of Workforce
                       Investment Act (WIA) funds. Kolomitsyev was sentenced to 15 months in
                       prison, Detrojan and Graf each received 18 months, and Matsiouk and
                       Kratsov each received 27 months. Kratsov and Graf were ordered to pay
                       $308,750 in forfeitures. The investigation into Russian organized crime
                       (ROC) and the smuggling of illegal aliens into the United States using the
                       H-1B program uncovered a complex scheme using fictitious companies,
                       falsified computer-generated visas, and false Social Security cards to help
                       illegal aliens, some of whom are ROC associates, obtain H-1B status. This
                       joint investigation was conducted with the SSA OIG, BICE, the U.S. Postal



Semiannual Report to the Congress                                                                        7
April 1, 2004–September 30, 2004
         Employment and                                                  Foreign Labor Certification
        Training Programs

                       Inspection Service, and the New York City Police Department. U.S. v. Graf et
                       al. (S.D. New York)
                       In a related case, on May 7, 2004, Bianca Veret, supervisor of the New York
                       Association for New Americans (NYANA), pled guilty to charges of
                       conspiracy and bribery concerning programs receiving Federal funding for
                       enrolling ineligible people in the WIA program. Under NYANA’s contract with
                       New York City, Veret was a case manager responsible for processing WIA
                       recipients. She allowed approximately $1.4 million in WIA funds to be
                       approved for disbursement to the defendants named in Graf by processing
                       fraudulent vouchers for fictitious names, identities, or schools and by allowing
                       self-certification of WIA applications in return for bribe payments. This
                       investigation was conducted jointly with the SSA OIG, BICE, and the
                       Department of Health and Human Services OIG. U.S. v. Veret (D. Maryland)

         Immigration Attorney Pleads Guilty in Visa Fraud Scheme
                       On April 23, 2004, Mohamad Alamgir, immigration attorney and managing
                       partner of Eapen, Alamgir & Associates, pled guilty to charges of conspiracy,
                       visa fraud, and money laundering. He conspired with local businesses to file
                       hundreds of fraudulent labor certification applications with DOL and alien
                       petitions with the Bureau of U.S. Citizenship and Immigration Services.
                       Alamgir used a variety of schemes, including filing for nonexistent aliens,
                       paying businesses to file for aliens they did not intend to or have the ability to
                       hire, and filing applications on behalf of businesses without their knowledge.
                       To date, nine business owners have pled guilty to charges of visa fraud. This
                       is a joint investigation with the FBI, the IRS, and the U.S. Immigrations and
                       Customs Enforcement. U.S. v. Alamgir, et al. (D. Columbia)




Semiannual Report to the Congress                                                                       8
April 1, 2004–September 30, 2004
         Employment and                                                  Workforce Investment Act
        Training Programs

Workforce Investment Act
                       The goal of the Workforce Investment Act of 1998 (WIA) is to increase
                       employment, retention, and earnings of participants and in doing so improve
                       the quality of the workforce to sustain economic growth, enhance productivity
                       and competitiveness, and reduce welfare dependency. Authorization for WIA
                       ended in 2003, and its reauthorization is pending before Congress.

         Inter-Tribal Council of Alabama WIA Grant
                       The OIG evaluated a complaint against the Inter-Tribal Council of Alabama
                       (ITC) in Millbrook, Alabama, to determine whether it had merit. The complaint
                       alleged wage and hour violations, misuse of funds, conflict of interest,
                       discrimination acts, and other activities that occurred from November 1999
                       through March 2003, while ITC used a $462,120 grant to operate a WIA
                       program for Native Americans.
                       We substantiated 4 of the 13 allegations and identified additional financial
                       and programmatic issues. Among the issues identified in the audit were a
                       lack of participation by some recognized tribes, inconsistency in reporting
                       program expenses, lack of support for participants’ eligibility, internal control
                       weaknesses over payroll disbursements, and no access for people with
                       disabilities to ITC’s building. We recommended that ETA take steps to
                       resolve these issues, including providing ITC with technical assistance to
                       increase program participation by underrepresented tribes and directing ITC
                       to comply with its own internal controls related to payroll. In response to our
                       draft report, ITC generally agreed with our findings and recommendations
                       and described corrective actions that ITC has begun to take. (OA Report No.
                       04-04-006-03-355, issued September 30, 2004)

         Former New York Commissioner of Labor Sentenced
                       Former New York State Commissioner of Labor James McGowan and
                       businessman John Segreti were sentenced on September 9, 2004, after
                       being convicted in May 2004 on charges of bribery, mail fraud, conspiracy to
                       commit mail fraud, theft of honest services, and the use of interstate facilities
                       to commit bribery. McGowan was also convicted of subscribing to false tax
                       returns for 1998 and 1999, which failed to report all of his income. McGowan,
                       the commissioner from February 1998 through October 2000 and former
                       president of the New York State Professional Fire Fighters Association, was
                       sentenced to 37 months in prison; Segreti received 57 months.
                       As the commissioner, McGowan steered more than $340,000 in grant money
                       to Segreti’s company and attempted to steer $10 million in Federal WIA
                       grants to Segreti through a subcontract with a Federal grantee who received
                       $100 million annually. In return, McGowan received regular payments of $500
                       from Segreti through a third party and the promise of a lucrative job on
                       leaving office. The convictions were the product of a joint investigation with
                       DOL’s Employee Benefits Security Administration, the IRS, and the New York
                       State Inspector General. U.S. v. McGowan; U.S. v. Segreti (S.D. New York)



Semiannual Report to the Congress                                                                      9
April 1, 2004–September 30, 2004
         Employment and                                                           Welfare-to-Work
        Training Programs

Welfare-to-Work
                       DOL provides Welfare-to-Work (WtW) grants to create job opportunities for
                       the hardest-to-employ welfare recipients and other eligible individuals. These
                       grants fund job placement services, transitional employment, and other
                       support services recipients need to make the successful progression into
                       long-term unsubsidized employment.

         More Than $8 Million Questioned in Audit of Florida WtW Grant
                       The OIG conducted a performance audit of a $19.8 million WtW Formula
                       Grant provided to the South Florida Workforce Board (SFWB) to determine
                       compliance with applicable laws and regulations on grant costs and
                       participant eligibility. We found that SFWB could not account for $4.2 million
                       in unauthorized cash drawdowns and had awarded contracts that did not
                       comply with Federal competition requirements. SFWB also failed to meet
                       Federal matching and participant reporting requirements, because it could not
                       verify more than $1.9 million of in-kind contributions. It also submitted
                       participant data that were inaccurate and unreliable. The OIG questioned a
                       total of $8.4 million for these and other findings.
                       We recommended that ETA require Florida officials to account for the
                       $4.2 million in excessive drawdowns, collect lost interest resulting from
                       unauthorized cash drawdowns, and adjust financial reports to correct a
                       $5.5 million reporting error. We also recommended that ETA direct Florida
                       officials to verify the matching funds and reduce the matching contribution by
                       amounts found to be ineligible or unsupported, and that it conduct a full
                       review of SFWB’s participant information systems to ensure that data are
                       entered accurately and properly. SFWB officials generally agreed with our
                       findings. SFWB indicated that it addressed our concerns related to excess
                       cash and had returned $4.2 million to the State. The State had also removed
                       the in-kind match contribution from their submission to ETA. However, SFWB
                       disagreed with our questioning of $2 million in contract costs and our
                       recommended collection of lost interest. We recommended that ETA verify
                       SFWB’s actions and recover questioned costs. (OA Report No. 04-04-002-
                       03-386, issued September 30, 2004)




Semiannual Report to the Congress                                                                  10
April 1, 2004–September 30, 2004
         Employment and                                                                     Job Corps
        Training Programs

Job Corps
                       Job Corps, established by Congress in 1964 and currently authorized under
                       the Workforce Investment Act of 1998, is recognized today as the nation’s
                       largest and most comprehensive residential education and job training
                       program for at-risk youths ages 16 through 24. More than 65,000 students
                       participate annually in the program. Operations of the program are carried out
                       at 122 primarily residential facilities that provide intensive education,
                       vocational training, youth development, counseling, job placement, and
                       follow-up services. For FY 2004, more than $1.5 billion was appropriated for
                       Job Corps.

         Inadequate Monitoring of Job Corps Student Outcome Data
         Could Lead to Overpayments
                       During an OIG audit of Job Corps’ process for ensuring that student
                       performance outcome data reported by contractors are reliable, we identified
                       a significant management control weakness that required immediate action.
                       As a result, we issued an interim report.
                       Specifically, we found that Job Corps staff in at least three offices did not test
                       the accuracy and completeness of performance data during on-site
                       assessments they conducted, contrary to ETA program guidance. Failure to
                       validate the reported data could result in overpayments to center operators,
                       because DOL relies on these data to reimburse Job Corps center contractors
                       for operating expenses and to pay them bonuses and incentive fees for
                       meeting or exceeding specified performance goals.
                       We recommended that ETA take immediate corrective action. Among our
                       recommendations were that ETA ensure that performance outcomes data are
                       tested during on-site reviews using statistical sampling and that ETA retain all
                       records related to the testing. We also recommended that ETA recover any
                       overpayments made to center operators due to misreported student
                       performance data. ETA agreed with our findings. (OA Report No. 09-04-004-
                       03-370, issued September 30, 2004)




Semiannual Report to the Congress                                                                      11
April 1, 2004–September 30, 2004
         Employment and                                                       Tax Credit Programs
        Training Programs

Tax Credit Programs
                       The Work Opportunity Tax Credit (WOTC) program is designed to encourage
                       employers to hire targeted groups of job seekers by reducing employers’
                       Federal income tax liability. The Work Opportunity Credit can reduce
                       employers’ Federal tax liability by as much as $2,400 per new hire.

         Defendant Sentenced for Defrauding Tax Credit Program
                       Myra Eison, owner of Cornerstone Consultants Company, was sentenced on
                       April 15, 2004, to one year in prison and three years’ probation after pleading
                       guilty in January 2004 to false claims charges related to a tax credit fraud
                       scheme. Eison was ordered to pay $302,292 in restitution, which represents
                       the amount of tax credits that her clients fraudulently claimed on their tax
                       returns. The investigation found that in 1997 Eison told her clients that she
                       had obtained WOTC certificates for them, but in reality she failed to submit
                       the required paperwork to the state agencies. This was a joint effort with the
                       Treasury Inspector General for Tax Administration. U.S. v. Eison (N.D.
                       Georgia)




Semiannual Report to the Congress                                                                   12
April 1, 2004–September 30, 2004
         Employment and                                    Trade Adjustment Assistance Program
        Training Programs

Trade Adjustment Assistance Program
                       The Trade Adjustment Assistance Reform Act of 2002 established new
                       mechanisms by which certain Trade Adjustment Assistance participants, as
                       well as eligible recipients of pensions administered by the Pension Benefit
                       Guaranty Corporation, can receive assistance in covering the cost of health
                       insurance. The primary mechanism for such assistance is a Federal tax credit
                       administered by the IRS, equal to 65% of the amount paid by an eligible
                       individual for qualified health insurance coverage of the individual and certain
                       family members.

         OIG Work Leads ETA to Obligate an Additional $15 Million in
         Health Coverage Tax Credit Funds
                       The OIG is in the process of conducting a performance audit of the Health
                       Coverage Tax Credit (HCTC) bridge/gap program. Our preliminary work
                       focused on the HCTC bridge/gap program at the Maine Department of Labor.
                       Based on our preliminary analysis of data, the OIG issued an interim report
                       notifying ETA of the underutilization of funds for this program. Specifically, as
                       of March 31, 2004, Maine expended only $298,000 of the $7.5 million
                       awarded on a grant that was scheduled to expire by September 30, 2004, but
                       has since been extended. We also found that as of March 31, 2004, only 10
                       states had participated in the bridge/gap program. Of the $50 million
                       authorized for the program in FY 2002, $35 million was awarded to those
                       states, and the remaining $15 million was not yet obligated. Moreover, the 10
                       states had expended only $3 million, or less than 9%, of the $35 million
                       awarded to them. At the end of June, there was still a low expenditure level
                       (14%) even though eight states’ grants had been in effect for at least a year.
                        We encouraged immediate action by ETA to prevent continued
                       underutilization of funds and to assist individuals in need of interim health
                       coverage as authorized by the Trade Adjustment Assistance Reform Act of
                       2002. We recommended that ETA immediately assess the need for
                       outstanding funds in the 10 states and, where necessary, redirect funds to
                       other states that are able to participate in the program. We also
                       recommended that ETA determine the reasons for fund underutilization and
                       the lack of state participation.
                       In response to our draft interim report, ETA outlined constructive steps toward
                       resolving our recommendations. For example, ETA advised of its plans to
                       obligate the $15 million in FY 2002 funding that was unobligated at the time
                       of our draft report. In addition, ETA stated that it issued policy guidance on
                       the use of the funds and is canvassing grantees to ensure that they
                       are aware of new policy direction and the need to modify their grants.
                       However, ETA still needs to proactively provide technical assistance to the
                       participating states to enhance performance, reach out to nonparticipating
                       states to assist in lifting barriers to their involvement, and continue its
                       coordination efforts with partnering organizations to work toward seamless
                       delivery and program enhancements that will increase the likelihood of
                       individuals participating in the program. (OA Interim Report No. 02-04-204-
                       03-330, issued September 20, 2004)

Semiannual Report to the Congress                                                                     13
April 1, 2004–September 30, 2004
                                                      Employee Benefits Security Administration
  Worker Benefits Programs


Employee Benefits Security Administration
                       The Employee Retirement Income Security Act (ERISA) requires that most
                       large employee-benefit plans obtain an annual audit of their financial
                       statements. These audits are important because they help protect plan
                       participants and beneficiaries by ensuring that the proper value of assets and
                       the proper computation of benefits. In fiscal year 2001, plan administrators
                       filed about 65,000 financial statements on private pension plans holding
                       assets of more than $4 trillion and covering more than 88 million participants.
                       One of Employee Benefits Security Administration’s (EBSA’s) responsibilities
                       is to ensure that these audits meet ERISA requirements, including
                       professional auditing standards, to help protect participant and beneficiary
                       benefits.

         EBSA Needs Additional Authority to Improve the Quality of
         Employee Benefit Plan Audits
                       The OIG audited the process used by EBSA to identify and correct
                       substandard audits of employee benefit plans. The quality and scope of these
                       audits and the resulting protections for workers have been long-standing
                       concerns of the OIG. Prior reviews by the OIG, the Government
                       Accountability Office, and EBSA have shown that a significant number of
                       these audits have not met ERISA requirements to validate the existence and
                       value of plan assets and the proper computation of benefits. These
                       substandard audits have not provided participants and beneficiaries the
                       protections envisioned by the Congress to help guard participant and
                       employee benefit plans from mismanagement or abuse. To address this
                       problem, EBSA established the Office of Chief Accountant (OCA). One of
                       OCA’s main responsibilities is to ensure the quality of employee benefit plan
                       audits. As part of an overall enforcement and compliance assistance effort,
                       OCA implemented a program in 1990 to identify and correct substandard
                       audits.
                       Although EBSA has made efforts to correct substandard audits, including
                       rejecting annual report filings and referring auditors to oversight and/or
                       licensing organizations for possible investigation and disciplinary action, the
                       process for identifying and correcting substandard employee benefit plan
                       audits has not been effective. Specifically, our audit found that EBSA does
                       not have the authority to take direct action against auditors who perform
                       substandard audits. Although EBSA has the responsibility to enforce ERISA’s
                       audit requirements, ERISA does not grant EBSA enforcement powers over
                       the auditors performing employee benefit plan audits. EBSA can only take
                       indirect enforcement action by imposing civil penalties against the plan
                       administrator, the person who hires a plan auditor. In contrast, other agencies
                       that monitor professional work to protect the public have direct authority to
                       correct deficient work, require remedial action when necessary, and remove
                       deficient professionals from doing work in their respective area of
                       responsibility. With similar enforcement authority over plan auditors, EBSA, in
                       our opinion, could better protect the interests of plan participants.


Semiannual Report to the Congress                                                                   14
April 1, 2004–September 30, 2004
                                                      Employee Benefits Security Administration
  Worker Benefits Programs

                       Other findings include the following:
                         • In our review of 16 referrals to oversight and/or licensing organizations,
                           9 had not been brought up to ERISA requirements, and EBSA did not
                           fully ensure that auditors corrected audit deficiencies.
                         • EBSA did not ensure that auditors corrected recurrent deficiencies in
                           subsequent years.
                         • EBSA’s case-tracking system was not accurate, and the documentation
                           of case files was not always complete.
                         • EBSA’s targeting methods for identifying substandard audits were not
                           effective. In fiscal year 2001, EBSA identified substandard audits in about
                           3% of the cases targeted for review; however a prior OIG audit found that
                           about 20% of the plan audits were substandard.
                       We recommended that EBSA:
                         •   Propose changes to ERISA to grant EBSA greater enforcement authority
                             over such matters as registration, suspension, debarment, and civil
                             penalties against employee benefit plan auditors.
                         •   Obtain sufficient documentation to ensure audit deficiencies are
                             corrected.
                         •   Expand workpaper reviews to more recent years when EBSA finds audit
                             deficiencies.
                         •   Review OIG referrals and take necessary action to correct the
                             substandard audits.
                         •   Improve the accuracy of EBSA’s case-tracking system.
                         •   Analyze available data and develop targeting methods to identify
                             substandard audits based on common attributes of plans with
                             substandard audits.
                       In response to our draft report, EBSA generally agreed with our conclusions
                       and recommendations and identified planned steps to address the
                       recommended actions. EBSA cited previous and ongoing efforts to improve
                       audit quality. With respect to EBSA’s enforcement authority, EBSA
                       recognizes deficiencies in the current law and is considering options for
                       correcting those deficiencies. Also, EBSA agreed that it could improve
                       documentation of corrected audit work. However, of the nine cases OIG
                       identified as not having been brought up to ERISA requirements, EBSA
                       believed six had been properly documented and closed after receiving
                       additional information from the plan auditors. Also, EBSA stated that the
                       OIG’s finding on the effectiveness of EBSA’s targeting methodology failed to
                       take into account annual report filings the agency rejected in FY 2001 based
                       on desk reviews that identified inadequate financial statement disclosures.
                       (OA Report No. 09-04-005-12-121, issued September 30, 2004)




Semiannual Report to the Congress                                                                   15
April 1, 2004–September 30, 2004
                                                                         Unemployment Insurance
  Worker Benefits Programs


Unemployment Insurance
                       The Unemployment Insurance (UI) program, a Federal-state partnership, is
                       the Department’s largest income maintenance program. This multibillion-
                       dollar program primarily provides income maintenance to individuals who
                       have lost their jobs through no fault of their own, as determined under state
                       law. In this program, DOL estimates approximately $4 billion annually in
                       overpayments. Examples of overpayments include payments for weeks paid
                       in which claimants had earnings, claimant misreporting of availability to work,
                       and miscalculations. In addition to our audit work, OIG investigations are
                       identifying UI fraud schemes that are more complex, costly, and far-reaching
                       than in the past. These include schemes involving identity theft and
                       nontraditional organized crime groups. In recent years, the program has
                       suffered losses in the millions of dollars as a result of a variety of fraud
                       schemes. Highlighted below are selected accomplishments.

         Use of New-Hire Data Could Generate Significant Savings
                       The OIG audited states’ implementation of using new-hire data for detecting
                       UI overpayments. A 2003 OIG audit made recommendations for reducing
                       overpayments by expanding states’ use of new-hire data, which we estimated
                       would save the Unemployment Trust Fund (UTF) an estimated $428 million
                       annually. However, the most recent OIG audit found that 12 states still were
                       not using their own state new-hire data to reduce overpayments.
                       In our current audit, we found that states can reduce overpayments by
                       investigating leads developed from new-hire information before a claimant’s
                       eligibility has been exhausted. For example, Florida places a hold on
                       additional benefit payments while investigating potential overpayments
                       identified through new-hire detection. This practice resulted in a savings of
                       $4.5 million between January 2002 and June 2003. If the overpayments had
                       gone undetected until after the claimants received UI benefits for all available
                       weeks, the overpayments would have amounted to $21 million during the
                       same period. The OIG recommended that state UI programs increase their
                       use of new-hire data to detect UI claimants who have returned to work but
                       are still collecting UI benefits, a measure we continue to believe would
                       generate significant savings. Moreover, we recommended that DOL:
                         • continue to provide technical assistance and resources to the state UI
                           programs that are currently not using new-hire detection in order to
                           initiate and/or complete plans for implementation as soon as possible;
                         • support more-detailed employer reporting, encourage states to improve
                           employer compliance for new-hire reporting, and help states analyze how
                           to best use their benefit payment control resources; and
                         • encourage states to use the National Directory of New Hires, which
                           recent legislation made available to State Workforce Agencies, to expand
                           overpayments detection.
                       In response to the draft report, ETA agreed with our recommendations. (OA
                       Report No. 05-04-002-03-315, issued September 30, 2004)


Semiannual Report to the Congress                                                                    16
April 1, 2004–September 30, 2004
                                                                         Unemployment Insurance
  Worker Benefits Programs

         $59 Million in Restitution Ordered in Identity Theft Scheme
                       During this reporting period, Hector Benitez and Ramon Bonilla were each
                       sentenced to five years’ incarceration and three years’ probation and were
                       ordered to jointly pay nearly $59 million in restitution for their roles in a UI
                       identity theft conspiracy that began in March 2001 and ended in April 2003.
                       Benitez is the third of 11 charged defendants to be sentenced. The
                       investigation revealed that the group controlled more than 4,000 check-
                       mailing addresses, from California to Mexico. These mailing addresses were
                       used to collect fraudulent UI checks issued by the States of California,
                       Arizona, Nevada, and Washington resulting from false claims filed by the
                       group, using 10,000 stolen identities. The investigation was conducted with
                       assistance from Federal, state, and local law enforcement agencies. U.S. v.
                       Espana Villasenor, et al. (E.D. California)

         Sentencings in UI Identity Theft Scheme
                       In August 2004, Manuel Espino-Martinez, Elisa Espino-Martinez, and Jose
                       Barrera-Olivares were sentenced for their roles in a UI identity theft scheme
                       that involved thousands of false UI claims totaling in excess of $8 million.
                       From February 1998 to April 2003, the defendants conspired to defraud the
                       UI program of millions of dollars by filing thousands of false UI claims, using
                       fraudulently acquired employee identities, which included names and Social
                       Security numbers. The scheme involved having the UI checks sent to
                       approximately 100 mailboxes and other addresses they controlled and then
                       laundering the more than $8 million through several business bank accounts
                       established by this nine-member family group.
                       Elisa Espino-Martinez was sentenced to 30 months’ incarceration, and
                       Barrera-Olivares was sentenced to 37 months’ incarceration on mail fraud
                       charges. In addition, both received three years’ probation and were ordered
                       to jointly pay more than $1.3 million in restitution. They pled guilty in April
                       2004 to the charges, and Elisa Espino-Martinez also pled guilty to forfeiture
                       charges and agreed to forfeit all properties owned by her. Manuel Espino-
                       Martinez was sentenced to two years in prison and was ordered to pay
                       $800,889 in restitution on conspiracy charges. This was a joint investigation
                       with the U.S. Postal Inspection Service, the SSA OIG, BICE, the California
                       Employment Development Department, the California Highway Patrol, the
                       California Department of Motor Vehicles, and the Fresno County (California)
                       Sheriff’s Department. U.S. v. Mandujano, et al. (E.D. California)

         $1.7 Million in Restitution Ordered for Defrauding UI Program
                       On May 6, 2004, Victor DiBartolo, a vice president of Sherpa Software Group,
                       L.P., formerly known as CisCorp, was sentenced to 20 months’ incarceration
                       and three years’ probation for mail fraud and money laundering conspiracy
                       charges related to a scheme to defraud the UI program. In addition, DiBartolo
                       was ordered to pay more than $645,000 in fines and restitution and Sherpa
                       was ordered to pay more than $550,000 in restitution. DiBartolo pled guilty to
                       charges related to defrauding the UI program and the West Virginia Bureau of
                       Employment Programs (WVBEP).


Semiannual Report to the Congress                                                                    17
April 1, 2004–September 30, 2004
                                                                         Unemployment Insurance
  Worker Benefits Programs

                       In February 2004, Sherpa agreed to pay a civil settlement of $419,320 to the
                       Department and further agreed to pay $29,008 to a realtor for work she had
                       done. The UI program paid approximately one-quarter of a $6 million contract
                       awarded to CisCorp in 1999 to design and install an automated computer
                       system for WVBEP. DiBartolo presented to the State of West Virginia
                       invoices that misrepresented the work performed by CisCorp. He also
                       requested and received numerous change orders, boosting the overall
                       contract in excess of $12 million. This investigation was conducted with the
                       IRS, the West Virginia Workers’ Compensation Office, the West Virginia
                       Commission on Special Investigations, and the West Virginia State Police.
                       U.S. v. DiBartolo (S.D. West Virginia)

         Defendant Sentenced in Employment Fraud Scheme
                       On May 14, 2004, Tan Ngo, owner of TRI-MARK temporary agencies, was
                       sentenced for his role in a scheme in which he paid temporary employees in
                       cash at a much lower rate than agreed upon and did not deduct withholdings,
                       including UI taxes. He was sentenced to two years and one month in prison,
                       and three years’ probation. In addition, Ngo was ordered to pay more than
                       $800,000 in restitution and forfeitures. To date, two of six defendants charged
                       have been sentenced. The case was investigated with the IRS, the FBI, and
                       the Massachusetts State Police. U.S. v. Ngo (D. Massachusetts)

         Forfeiture Order Declared in UI Fictitious Employer Case
                       On August 5, 2004, Gerald Bollin was ordered to forfeit properties and assets
                       acquired with the proceeds of fictitious employer, private insurance, and
                       credit card schemes that he orchestrated for more than 10 years. The
                       forfeiture amount will be applied to the nearly $700,000 he was ordered to
                       pay in his January 2003 sentencing, which also included 45 months’
                       incarceration and three years’ probation. From 1987 until his arrest in June
                       2002, Bollin set up fictitious businesses in the State of Washington and
                       submitted false quarterly wage reports, enabling him to fraudulently receive
                       UI benefits under multiple identities. While drawing these UI benefits, he also
                       set up multiple renters’ and homeowners’ insurance policies, against which
                       he filed fraudulent personal loss claims under many identities, allowing him to
                       receive insurance benefits. The OIG was assisted in this investigation by the
                       U.S. Postal Inspection Service, the SSA OIG, and the Washington
                       Employment Security Department. U.S. v. Bollin (W.D. Washington)

         Defendant Pleads Guilty in Fictitious Employer Scheme
                       On September 15, 2004, Donald Engel pled guilty to charges of conspiracy,
                       mail fraud, and making false statements in connection with a fictitious
                       employer scheme that allowed him to draw approximately $330,000 in UI,
                       state workers’ compensation, and Social Security disability benefits. From
                       1995 to 2003, Engel created four fictitious employers and filed business
                       applications with the State of Washington. He subsequently filed quarterly tax
                       reports with the state, reporting wages for himself and others. The OIG was
                       assisted in this investigation by the FBI, SSA OIG, and the Washington
                       Employment Security Department. U.S. v. Engel (W.D. Washington)

Semiannual Report to the Congress                                                                   18
April 1, 2004–September 30, 2004
                                                          Federal Employees’ Compensation Act
  Worker Benefits Programs


Federal Employees’ Compensation Act
                       The Employment Standards Administration’s (ESA’s) Office of Workers’
                       Compensation Programs (OWCP) administers the Federal Employees’
                       Compensation Act (FECA) program. This program provides wage
                       replacement benefits, medical treatment, vocational rehabilitation, and other
                       benefits to certain workers who experience work-related injuries or
                       occupational diseases and to their dependents.

                       In addition to providing audit oversight of the program, the OIG also
                       investigates fraud against the program. Claimant fraud involves the
                       concealment or false reporting of employment and income by an individual
                       who continues to receive program benefits or services. In the FECA program
                       alone, more than $2.4 billion in medical and death benefits and wage loss
                       compensation was paid from July 1, 2003, to June 30, 2004, with more than
                       half of those benefits paid to injured employees of the U.S. Postal Service,
                       the Department of the Navy, and the Department of the Army. It is important
                       to note that the removal of a single fraudulent claimant from Federal benefit
                       rolls creates, on average, a $300,000 to $500,000 savings for the
                       government.

         Improvements Are Needed in How OWCP Measures
         Customer Satisfaction
                       The OIG conducted an evaluation of customer service provided in FY 2003
                       by OWCP. The objectives of the evaluation were to determine how OWCP’s
                       New York District Office responded to complaints or inquiries regarding the
                       FECA program and how useful nationwide OWCP customer surveys were in
                       evaluating customer satisfaction.
                       We determined that, despite time-consuming duties and a heavy workload,
                       OWCP’s New York District Office responded to and resolved most of the
                       complaints it received. Response time was generally satisfactory, but the time
                       to resolve complaints varied depending on the complexity of issues involved.
                       However, OWCP’s telephone surveys provide a limited indication of customer
                       satisfaction.
                       We recommended that ESA establish separate customer surveys and
                       performance goals for employing agencies and include in the call-back
                       survey follow-up questions (or some other methodology) to determine the
                       underlying causes of dissatisfaction with telephone customer service.
                       ESA raised a number of concerns about the audit and disagreed with the
                       recommendations. ESA said that it has conducted several types of surveys of
                       customer groups, including medical providers, employing agencies, and
                       general written surveys of claimants, as well as telephone call-back surveys.
                       A general question about satisfaction was included in the general written
                       survey but not in the telephone survey because that was targeted to evaluate
                       and improve the customers' telephone experience. ESA's full response was
                       included in the final report. We continue to believe that our recommended


Semiannual Report to the Congress                                                                  19
April 1, 2004–September 30, 2004
                                                          Federal Employees’ Compensation Act
  Worker Benefits Programs

                       actions are needed, because to improve customer service, in our opinion,
                       ESA should know the causes of customer dissatisfaction and the magnitude
                       of employing agency concerns. (OA Report No. 02-04-203-03-431, issued
                       September 30, 2004)

         Former Air Traffic Controller Sentenced for FECA Fraud
                       On May 20, 2004, Michael Harms, a former air traffic controller, was
                       sentenced to 33 months’ incarceration and three years’ probation after being
                       convicted in February 2004 on mail fraud charges and for making false
                       statements to obtain Federal employees’ compensation. He was also ordered
                       to pay $354,390 in restitution. The investigation revealed that Harms filed an
                       OWCP claim in November 1996 for an injury while employed as an air traffic
                       controller for the Federal Aviation Administration. He fraudulently collected
                       OWCP benefits over a five-year period while he worked as a pilot for
                       airfreight companies and continued to advise OWCP that he was not
                       employed. The investigation was a joint effort with the Department of
                       Transportation OIG. U.S. v. Harms (N.D. Texas)

         FECA Medical Provider Sentenced for Defrauding OWCP
                       On August 26, 2004, Charles Blevins, owner of various physical therapy
                       clinics, was sentenced to one year in prison and three years’ probation and
                       was ordered to pay more than $112,000 in restitution after pleading guilty in
                       January 2003 to mail fraud charges related to fraud of the OWCP. In addition,
                       he agreed to forfeit $218,640 and a car. The investigation revealed he had
                       submitted fraudulent invoices to OWCP and private insurance carriers for
                       payment of treatments and services not fully rendered to workers’
                       compensation patients. This was a joint investigation with the FBI and the
                       Texas Workers’ Compensation Commission. U.S. v. Blevins (W.D. Texas)




Semiannual Report to the Congress                                                                  20
April 1, 2004–September 30, 2004
 Worker Safety, Health, and                                                       Davis-Bacon Act
    Workplace Rights

Davis-Bacon Act
                       The Davis-Bacon Act requires the payment of prevailing wage rates and
                       fringe benefits to employees working on federally funded or federally assisted
                       construction projects with contracts of $2,000 or more. It was enacted to
                       prevent contractors from importing lower-wage workers into a community or
                       driving down wages for local workers. In 2001, the latest year for which data
                       are available, approximately $67 billion in Federal funds were authorized for
                       construction projects covered by the Davis-Bacon Act.

         Contractor Sentenced in Wage Fraud Conspiracy
                       On May 3, 2004, Robert Adkins, owner of Adkins and Associates, was
                       sentenced to 18 months’ imprisonment and three years’ probation for his
                       participation in a wage fraud conspiracy. Adkins and Associates was a
                       subcontractor for construction projects with mortgages that were insured by
                       the Department of Housing and Urban Development (HUD) and thereby
                       subject to the Federal prevailing wage requirements under the Davis-Bacon
                       Act. Gatehouse Building Company, Inc., was the general contactor; it
                       submitted false certified payroll reports for Adkins and other subcontractors.
                       The Federal government entered into a cooperation agreement with
                       Gatehouse, in which Gatehouse paid a total of $756,829 to DOL to pay
                       restitution to the workers of Adkins and seven other subcontractors.
                       Therefore, Adkins was not ordered to pay restitution. To date, five of the
                       subcontractors have pled guilty to conspiracy charges. To reduce costs on
                       the project, Adkins paid various workers from his company an hourly rate
                       below the prevailing wage for their job classification and then concealed his
                       failure to pay prevailing wages by preparing false certified payrolls. The
                       investigation was conducted jointly with HUD OIG and DOL’s Wage and Hour
                       Division. U.S. v. Adkins (N.D. Ohio)

         Contractors Plead Guilty in Scheme to Underpay Workers
                       During this reporting period, DJH Mechanical Associates Ltd. and Lawrence
                       Bader of Energy Systems pled guilty to state charges of making false
                       statements. In addition, another company was charged with failing to pay a
                       prevailing wage and making false statements. The three contractors worked
                       on the $35 million capital improvement project for the Mahopac School
                       District, which was subject to the Federal prevailing wages requirements
                       under the Davis-Bacon Act. The contractors underreported wages and
                       submitted false certified payrolls to hide wages and cash payrolls. This case
                       was jointly investigated with the New York State Attorney General’s Office
                       and the New York Department of Labor. State of New York v. DJH
                       Mechanical




Semiannual Report to the Congress                                                                  21
April 1, 2004–September 30, 2004
                                                                                 e-Payroll Initiative
 Departmental Management


e-Payroll Initiative
                       The Federal government’s e-Payroll initiative is designed to consolidate
                       Federal civilian payroll services. Until now, 22 executive branch agencies
                       provided payroll services using different system capabilities and following
                       different business models. The goal of the initiative is to eliminate redundant
                       payroll processing, increase internal efficiency and effectiveness, and reduce
                       costs. Under e-Payroll, the DOL’s payroll will move to the National Finance
                       Center (NFC), which is part of the Department of Agriculture.

         e-Payroll Conversion Concerns Persist
                       The OIG is conducting an ongoing audit to determine whether the e-Payroll
                       project is being effectively managed. The OIG issued the third interim report
                       on e-Payroll August 18, 2004; prior reports were issued in March and July
                       2004. Each report identified vulnerabilities in the management of the payroll
                       migration that may impede the success of this project. The original date of
                       implementation of e-Payroll was September 30, 2004. Soon after the close of
                       the reporting period, the Department postponed implementation.

                       The third interim report addressed several outstanding recommendations
                       from the prior reports. Specifically, we reported that the Chief Financial
                       Officer (CFO) (1) did not brief the Technical Review Board—which is
                       composed of DOL agencies’ information technology (IT) executives—on the
                       status of e-Payroll testing to gain added insight and advice from
                       knowledgeable and experienced department-wide IT managers, and (2) did
                       not develop an updated project-migration budget indicating expected costs
                       and actual expenses of migration. Moreover, the third report identified new
                       issues. For example:

                         • Thousands of errors remained to be corrected in employee records and
                           incorrect data is being used to test the system.
                         • There is no adequate, finalized, and approved process in place to support
                           DOL’s decision to move forward with implementation.
                         • There are still unanswered questions as to the effectiveness of user
                           training and whether it provides adequate information on the system’s
                           features and functions.
                       To address these new issues, we recommended that the CFO delay the
                       decision on implementing e-Payroll until the NFC payroll mirrors the payroll
                       produced by DOL and that data cleanup be completed so that every DOL
                       employee can be paid accurately and on time. Moreover, the CFO should
                       ensure that training for DOL Human Resources and payroll employees
                       continues, so all key users can adequately perform their job function and
                       have a complete understanding of the system’s features and processes.
                       The CFO provided no additional information in response to our draft report
                       that would warrant a change in our findings and/or recommendations. (OA
                       Report Nos. 23-04-012-13-001, issued July 8, 2004, and 23-04-015-13-001,
                       issued August 18, 2004)



Semiannual Report to the Congress                                                                   22
April 1, 2004–September 30, 2004
                                                                                     Real Property
 Departmental Management


Real Property
                       The Government Accountability Office designated Federal real property as a
                       high-risk area in January 2003. On February 4, 2004, the President issued
                       Executive Order 13327, “Federal Real Property Asset Management.” In
                       conjunction with the Executive Order, the Office of Management and Budget
                       (OMB) has added an initiative to the President’s Management Agenda aimed
                       at improving stewardship of Federal real property assets.

         ETA’s Real Property Inventory in Four States Understated
         Equity by $30 Million
                       The OIG conducted an audit to assess ETA’s management controls over
                       Federal equity in State Workforce Agencies’ (SWA’s) real property. Two prior
                       OIG reports highlighted weaknesses in management controls over real
                       property that resulted in significant understatements of DOL’s equity. In
                       response, DOL stated that ETA had taken actions to ensure that accounting
                       for the equity was no longer a critical weakness.
                       In our most recent audit, we found that ETA still had not established
                       adequate management controls over accounting for the Department’s equity
                       interest in SWA’s real properties. Specifically, ETA’s inventory of SWA
                       property was neither accurate nor complete, and ETA did not ensure the
                       states properly handled the proceeds from disposing of SWA properties with
                       DOL equity.
                       Based on our audit in the states of California, Georgia, Texas, and Utah as of
                       September 30, 2001, we identified 61 properties where ETA’s real property
                       inventory understated DOL’s equity by a net $30.2 million. Consistent with
                       past assurances regarding real property and in light of the Federal Real
                       Property Asset Management Executive Order and the OMB initiative, we
                       recommended ETA make control and management of real property a high
                       priority. Specifically, we recommended that ETA implement controls over data
                       validity and reliability and monitor states’ compliance with applicable
                       requirements regarding their use of cash resulting from SWA real property
                       dispositions.
                       In response to our report, ETA generally agreed with the audit report but did
                       not address our specific recommendations. ETA stated that maintaining an
                       up-to-date inventory and valuation of SWA property and managing the use
                       and disposition of SWA real property continue to present challenges to states
                       and to ETA.
                       In a related issue, during this reporting period we issued a management letter
                       to ETA advising that some State Workforce Agencies were amortizing the
                       acquisition costs of real property against Workforce Investment Act (WIA)
                       grant funds, although 20 CFR §667.260 specifically prohibits the use of WIA
                       grant funds for the “construction or purchase of facilities or buildings.” The
                       only allowable costs WIA grantees can charge for grantee-owned properties
                       are depreciation (or a 2% use charge), interest, and operations and
                       maintenance costs.


Semiannual Report to the Congress                                                                  23
April 1, 2004–September 30, 2004
                                                                                    Real Property
 Departmental Management

                       In response to our draft management letter, ETA indicated that its proposed
                       policy addresses a wide variety of issues related to real property, including
                       some OIG concerns. However, the proposed policy does not specify how
                       ETA will identify, disallow, and recover unallowable amortization costs
                       already charged to WIA grants in excess of allowable premises costs. (OA
                       Audit Report No. 06-04-002-03-325, issued September 30, 2004; OA
                       Management Letter No. 06-04-003-03-325, issued September 30, 2004)




Semiannual Report to the Congress                                                                 24
April 1, 2004–September 30, 2004
                                                                            Information Technology
 Departmental Management


Information Technology
                       The Department operates sensitive systems comprising major applications,
                       general support systems, and mission-critical systems. DOL relies on these
                       critical information systems to monitor and analyze the nation’s labor market
                       and economic activities, manage workforce services, and protect and
                       compensate American workers.

         Inconsistent Enforcement of IT Security Policies Cited in Audits
         of DOL Computer Systems
                       The OIG conducted a number of information technology (IT) security audits
                       during the reporting period. We reviewed the following systems:
                         •   Office of the Assistant Secretary for Administration and Management’s
                             (OASAM’s) Employee Computer Network/Departmental Computer
                             Network, a general support system that enables the day-to-day
                             operations of the Department’s functions.
                         •   EBSA’s Employee Retirement Income Security Act Filing and Acceptance
                             System (EFAST), used to provide retirement-related data to several
                             Federal agencies.
                         •   Office of Administrative Law Judges’ (ALJ’s) case tracking system (CTS),
                             which tracks court cases, related documentation, and decisions arising
                             from more than 80 other labor-related statutes and regulations.
                         •   The ALJ wide area network, a system providing ALJ with office
                             automation support, Internet and e-mail connectivity, and accessibility to
                             its CTS.
                         •   The Office of the Assistant Secretary for Policy’s Employment Laws
                             Assistance for Workers and Small Businesses System (Elaws), a Web-
                             based automated response system to public inquiries.
                       We found improvements in the agencies’ security and controls over their IT
                       resources. However, we also identified several high-risk control findings that
                       need to be addressed. For example, EFAST’s security policies and
                       processes were not consistently enforced; OASAM’s risk management
                       system did not provide detailed descriptions of the threats, vulnerabilities, and
                       risks identified; and ALJ’s CTS was granted authorization to operate with an
                       inadequate security test and evaluation of its system controls.
                       We identified several causes for these and other weaknesses. Some of the
                       causes resulted from the prioritization of other control areas, inconsistent
                       documentation and implementation of security policies, incomplete familiarity
                       with and planning for Federal Information Security Management Act (FISMA)
                       requirements, and inadequate communication related to implementation of
                       required policies and procedures. The OIG recommended that each agency
                       take appropriate corrective actions on the security control findings identified.
                       The agencies generally agreed with our findings and recommendations and
                       have begun to take corrective action. (OA Report Nos. 23-04-014-01-060; 23-
                       04-028-07-001; 23-04-011-12-001; 23-04-013-01-060; 23-04-029-01-001, all
                       issued September 30, 2004)


Semiannual Report to the Congress                                                                     25
April 1, 2004–September 30, 2004
                                                                          Information Technology
 Departmental Management

         OSHA Needs to Adopt Best Practices to Minimize Risks in
         System Development Efforts
                       An OIG audit identified project management weaknesses in the Occupational
                       Safety and Health Administration’s (OSHA’s) redesign of its Integrated
                       Management Information System (IMIS), a mission-critical data system that
                       collects information required to manage OSHA. Since its initiation in 1995,
                       the redesign project has experienced procurement and contract performance
                       problems and changed contractors. Its planned cost, initially estimated at $2
                       million, was revised to $8.5 million in 2000 and to $12.6 million in 2002.
                       We found that IMIS’s Project Management Plan did not cover the entire
                       redesign, that uncertain funding increased project risk, and that the project
                       manager lacked critical knowledge and experience. During our audit
                       fieldwork, OMB withdrew $4 million in funding for the redesign, and OSHA
                       has since suspended the redesign effort. We recommended that OSHA adopt
                       best practices in project planning and design, such as using a system
                       development life cycle approach to project planning, and work with
                       experienced project managers to establish a better foundation for—and
                       minimize risks in—future system development projects. OSHA agreed with
                       our recommendations in the draft audit report. OSHA has commissioned a
                       contractor to perform an evaluation of the IMIS redesign and is waiting for the
                       contractor’s report before specifically addressing the OIG recommendations.
                       (OA Report No. 23-04-009-10-001, issued September 30, 2004)

         Stronger IT Security Controls Needed in State UI Programs
                       During this reporting period, we assessed the general controls on and
                       security of IT systems operated by Missouri’s Department of Labor and
                       Industrial Relations (DOLIR), the State of Washington’s Employment Security
                       Department (ESD), the Florida Agency for Workforce Innovation (AWI), and
                       the Unemployment Insurance Interstate Connection Network (UI-ICON),
                       which supports an interstate data exchange so that states can share UI data
                       electronically.
                       Our audits found that the state agencies and UI-ICON had improved their
                       security and controls over their IT resources and the UI system. Some of
                       these improvements included internal IT audit reviews of the local area
                       network (LAN) physical security, a vulnerability assessment of the UI tax and
                       benefit system, timely removal of separated UI users, use of multiple
                       firewalls, and a successfully tested disaster recovery plan.
                       Despite this progress, we found high-risk security control weaknesses. Some
                       of these included weak interagency agreements and contracts and weak
                       system interconnections, incomplete and untested contingency plans,
                       outdated software, and inconsistent implementation of controls. These
                       weaknesses increased the risk for unauthorized access, misuse, disclosure,
                       or deletion of data managed by the agencies.
                       We recommended that ETA advise the state agencies to use Federal
                       resources such as the Supplemental Budget Request mechanism for
                       correcting information security weaknesses in their state UI systems. ETA


Semiannual Report to the Congress                                                                   26
April 1, 2004–September 30, 2004
                                                                         Information Technology
 Departmental Management

                       agreed with our report on UI-ICON. (OA Report Nos. 23-04-017-01-060; 23-
                       04-016-03-315; 23-04-027-03-315, all issued September 30, 2004)

         Stronger Oversight Needed for Costs Charged to DOL Grants by
         State Workforce Agencies
                       ETA asked the OIG to audit costs charged by State Workforce Agencies
                       (SWAs) to DOL grants. The OIG audited the ADP/IT central services costs
                       charged to DOL grants for the States of New Jersey and Kentucky and direct
                       and indirect costs charged to DOL grants for the State of Texas to ensure
                       that the states followed Federal cost principles (OMB Circular A-87) and the
                       terms of the grants.
                       We found that the State of New Jersey overcharged the Department
                       $475,149 for ADP/IT services and miscalculated some building interest and
                       depreciation costs. Among our recommendations, we requested that New
                       Jersey make the necessary adjustments to DOL grant awards for the
                       overcharges and implement internal control procedures to ensure that costs
                       charged to DOL grants comply with OMB principles. The state generally
                       agreed with our findings.
                       We initially found that Kentucky’s Statewide Cost Allocation Plan did not
                       contain documents required by Federal cost principles for billing ADP/IT
                       central services costs to Federal grants. However, after the State received
                       our draft audit report, these documents were provided. Our report did not
                       contain any conditions that warranted corrective action.
                       We found that the State of Texas did not adjust $40.4 million in estimated
                       costs charged to DOL grants to reflect actual costs, as OMB requires. We
                       also found that the State charged more than $228 million in labor and fringe
                       benefits to DOL grants on the basis of time reports that reflected estimates
                       rather than actual time worked on a project. Among our recommendations
                       were that DOL adjust what the state charged to DOL based on actual costs
                       and refund any overcharges to DOL. The state agreed with our
                       recommendations. (OA Report Nos. 03-04-003-03-315, issued June 21, 2004
                       [New Jersey]; 03-04-005-03-315, issued July 16, 2004 [Kentucky]; 03-04-
                       002-03-315, issued July 23, 2004 [Texas])




Semiannual Report to the Congress                                                                27
April 1, 2004–September 30, 2004
                                                             Office of Small Business Programs
 Departmental Management

  Office of Small Business Programs
                       The Small Business Act requires that a specified level of Federal
                       procurements come from small businesses annually. DOL’s Office of Small
                       Business Programs (OSBP) negotiates small business procurement goals
                       annually with each DOL agency, sponsors vendor outreach sessions, and
                       has overall responsibility for achieving the Department’s small business
                       goals.

         DOL Can Stimulate Small Business Growth and Decrease Its
         Procurement Expenditures by Maximizing Small Business
         Purchases
                       The OIG conducted an evaluation of OSBP to review historical achievement
                       of small business procurement goals, analyze the performance of OSBP in
                       executing the small and disadvantaged business utilization function, and
                       assess conditions that affected the maximization of small business
                       procurement for FY 1999 to FY 2002. The number of vendors competing for
                       procurements in the DOL marketplace could affect the price and quality of
                       goods and services purchased. Potential impacts of expanding the
                       competition for contracts include decreased DOL procurement spending and
                       increased quality of goods and services.
                       Although the Department successfully achieved its overall goal for FY 2000 to
                       FY 2002, 41% of DOL agencies did not achieve their overall small business
                       procurement goals in FY 2002. Our evaluation found that OSBP did not set
                       some individual agency goals high enough to encourage agencies to perform
                       above expectations and maximize small business purchases. Moreover,
                       OSBP did not provide adequate outreach or leadership for DOL’s small
                       business procurement efforts due to internal (e.g., lack of enforcement
                       power) and external (e.g., businesses’ growth beyond small business limit)
                       conditions.
                       We recommended improvement in a variety of areas, including goal-setting
                       strategy, procedures for vendor outreach sessions, competitive versus
                       noncompetitive contracts, and adoption of effective techniques used by other
                       Federal agencies. OSBP agreed with our findings and stated that it has
                       implemented corrective actions. (OA Report No. 21-04-004-01-100, issued
                       April 29, 2004)




Semiannual Report to the Congress                                                                 28
April 1, 2004–September 30, 2004
                                                                Employee Integrity Investigations
 Departmental Management


Employee Integrity Investigations
         Former DOL Employees Plead Guilty to Accepting Bribes
                       Kevin Brown, a former Bureau of Labor Statistics (BLS) employee, pled guilty
                       on June 14, 2004, to charges of accepting a gratuity by a public official. The
                       investigation found that between 2002 and 2004, Brown conducted illegal
                       activity using both purchase orders and Federal government credit cards and
                       received $1,300 in cash bribes from the transactions. Brown accepted the
                       bribes during his duty hours. This investigation was conducted jointly with the
                       FBI.
                       In a related case, Joe Rudolph, also a former BLS employee, pled guilty on
                       September 9, 2004, to charges of accepting a gratuity by a public official.
                       Rudolph solicited bribes, kickbacks, and gratuities from numerous BLS sales
                       representatives of various vendors in the form of cash, computer equipment,
                       meals, pre-paid cellular telephones, and a part-time job offer, in exchange for
                       making purchases and receiving a pre-arranged percentage of the total
                       purchase order as his kickback payment. On various occasions, Rudolph
                       would split the kickback payments with BLS co-worker Kevin Brown, with
                       whom Rudolph conspired to solicit and receive kickbacks. Both employees
                       resigned their position as part of the plea agreement. This was a joint
                       investigation conducted with the FBI. U.S. v. Brown and U.S. v. Rudolph
                       (D. Columbia)




Semiannual Report to the Congress                                                                   29
April 1, 2004–September 30, 2004
       Labor Racketeering

                       The OIG at the Department of Labor is unique among inspectors general in
                       that it has an “external” program function to conduct criminal investigations to
                       combat the influence of labor racketeering and organized crime in the
                       nation’s labor unions. Labor racketeering is the infiltration, domination, and/or
                       use of a union or employee benefit plan for personal benefit by illegal, violent,
                       or fraudulent means. Organized crime is defined as activities carried out by
                       groups with a formalized structure whose primary objective is to obtain
                       money through illegal activities. Traditionally, organized crime has been
                       carried out by La Cosa Nostra (LCN) groups, also known as the “mob” or the
                       “Mafia.” However, new groups are emerging and organizing. For example,
                       organized crime groups now include Asian, Russian, Eastern European,
                       Nigerian, and West African groups.

                       Labor racketeering activities carried out by organized crime groups affect the
                       general public in many ways. Because organized crime’s exercise of market
                       power is usually concealed from public view, millions of consumers
                       unknowingly pay what amounts to a tax or surcharge on a wide range of
                       goods and services. In addition, by controlling a key union local, organized
                       crime can control the pricing in an entire industry. Moreover, the public also
                       suffers when organized crime orchestrates illicit strikes and work slowdowns
                       or resorts to violence to maintain its operation of labor rackets.

                       Over the past two decades, the OIG has conducted extensive criminal
                       investigations of labor racketeering. Traditionally, organized crime has been
                       involved in loan sharking, gambling, benefit plan fraud, violence against union
                       members, embezzlement, and extortion. OIG investigations have uncovered
                       millions of dollars of workers’ dues and benefit monies that have been
                       siphoned off by organized crime through embezzlement or more
                       sophisticated devices such as fraudulent loans or excessive fees paid to
                       corrupt union and benefit plan service providers. Our investigations continue
                       to identify complex financial and investment schemes used to defraud
                       pension assets, resulting in millions of dollars in losses to plan participants.

                       According to the Department of Justice, there has been a rapid rise of
                       transnational organized crime groups that are engaging in new criminal
                       enterprises. These nontraditional groups from Asia, Russia, Eastern Europe,
                       and West Africa have engaged in racketeering and other crimes against
                       workers in both union and nonunion environments. These groups engage in
                       complex financial schemes, immigration fraud and exploitation of
                       undocumented aliens, and fraud against government benefit programs.

                       Specifically, OIG investigations have found that nontraditional organized
                       criminal groups are exploiting the Department of Labor’s foreign labor
                       certification and Unemployment Insurance (UI) programs. The following
                       cases are illustrative of our work in helping to eradicate both traditional and
                       nontraditional labor racketeering in the nation’s labor unions, employee
                       benefit plans, and workplaces.


Semiannual Report to the Congress                                                                     30
April 1, 2004–September 30, 2004
                                                                       Benefit Plan Investigations
       Labor Racketeering


Benefit Plan Investigations
                       The OIG is responsible for combating corruption involving the monies in
                       union-sponsored benefit plans. These pension plans and health and welfare
                       benefit plans comprise hundreds of billions of dollars in assets. Our
                       investigations have shown that this money remains vulnerable to corrupt
                       union officials and organized crime influence. Service providers to pension
                       plans continue to be a strong focus of the OIG’s investigations.

         Union Attorney and Associate Plead Guilty to Bribery Charges
                       During this period, Peter Manous, an attorney for the Indiana Regional
                       Council of Carpenters (IRCC) and Kevin Pastrick, a real estate broker, pled
                       guilty to charges of conspiracy, acceptance of a bribe to be influenced in the
                       operations of an ERISA employee benefit plan, making bribe payments to a
                       union official to influence the operation of an ERISA employee benefit plan,
                       making false statements to OIG agents, and obstruction of justice.
                       Manous admitted to accepting $200,000 in illegal kickbacks from Pastrick.
                       The two then facilitated the payment of $65,000 in illegal kickbacks to Gerry
                       Nannenga, the secretary-treasurer of the IRCC and former trustee of the
                       Northwest District Council of Carpenters Pension Fund. The payments to
                       Manous and Nannenga were made in conjunction with the Pension Fund’s
                       $10 million purchase of 55 acres of land at the Coffee Creek housing
                       development in 1999. As one of the plan trustees, Nannenga cast the
                       deciding vote authorizing the Coffee Creek purchase. The kickbacks to
                       Nannenga were disguised as legitimate payments to Nannenga’s spouse
                       through a shell company. On September 13, 2004, Paul Ihle, Pastrick’s
                       partner, was convicted of obstruction of justice and making false statements
                       to Federal investigators and the grand jury in relation to the shell company.
                       Previously, Ihle had entered into an immunity agreement with the U.S.
                       Attorney’s Office, which he breeched by providing the false testimony. The
                       investigation was a joint effort with EBSA. U.S. v. Manous, U.S. v. Pastrick,
                       U.S. v. Ihle (N.D. Indiana)

         Defendant Pleads Guilty to Health Care Fraud
                       On September 30, 2004, John Hyde, the president of Interstate Services
                       Incorporated (ISI), pled guilty to charges of health care fraud, mail fraud,
                       money laundering, and orchestrating a health insurance scheme in which he
                       defrauded thousands of people who purchased health insurance plans from
                       ISI. ISI sold a health plan known as the ERISA Employee Health Benefit Plan
                       or the ERISA Advantage. He promised that 30% of the premiums collected
                       would go into trust accounts at a bank and the rest would be used to
                       purchase a group health insurance policy from an established, highly rated
                       insurance company. Hyde and ISI collected the premiums but failed to
                       deposit them into the trust accounts. He instead used the money to pay his
                       personal expenses and to pay commissions to the promoters of the scheme.
                       The investigation was conducted jointly with EBSA, the FBI, and the IRS
                       Criminal Investigations Division. U.S. v. Hyde (N.D. California)


Semiannual Report to the Congress                                                                  31
April 1, 2004–September 30, 2004
                                                                    Internal Union Investigations
       Labor Racketeering


Internal Union Investigations
                       Our internal union cases often involve instances of corruption, such as union
                       officers’ abuse of their positions of authority to embezzle money from union
                       accounts for their own benefit. Investigations in this area also focus on
                       situations in which organized crime groups control or influence a labor
                       organization, frequently in order to exercise influence in an industry for
                       corrupt purposes or to operate traditional vice schemes such as drug dealing
                       and theft. Following are examples illustrative of our work in this area.

         Former Union President Sentenced for Embezzlement Scheme
                       On May 3, 2004, John Angelone, former president of the International
                       Longshoremen’s Association Local 1588, was sentenced to six months’ home
                       confinement and three years’ probation and is jointly responsible for paying
                       approximately $900,000 in restitution. He pled guilty in October 2001 to
                       conspiracy charges. From January 1994 to December 1998, Angelone and
                       his co-defendants, who were previously sentenced, conspired to embezzle
                       thousands of dollars of Local 1588 funds. They were charged with generating
                       improper disbursements from Local 1588 through an elaborate salary
                       diversion scheme by devising one or more projects for Local 1588 to allow
                       service providers to significantly inflate their costs and thereafter provide
                       kickbacks to the defendants and others. This was an investigation with the
                       New Jersey State Police. U.S. v. Angelone (D. New Jersey)

         Union President Convicted of Racketeering Charges
                       On June 2, 2004, Walter Browne, president of the National Federation of
                       Public and Private Employees (NFOPAPE), and his sister Patricia Browne
                       Devaney, a former administrative assistant to the union, were convicted on
                       charges including RICO violations, embezzlement of union assets, Taft-
                       Hartley Act violations stemming from the unlawful receipt of monies from
                       multiple employers, bank fraud, mail fraud relating to property and the
                       intangible right of honest services, and record-keeping violations. The
                       investigation found that from 1994 to 2003, Browne received almost $500,000
                       from various employers while simultaneously representing the interests of the
                       NFOPAPE and the Marine Engineers Beneficial Association, a maritime labor
                       union. Additionally, Devaney embezzled more than $116,000 from NFOPAPE
                       by issuing unauthorized payroll checks to herself, her daughter, and her
                       husband. Moreover, Browne and Devaney together falsified travel and
                       entertainment expense reports, thereby causing NFOPAPE to pay thousands
                       of dollars in personal expenses on their behalf. U.S. v. Browne, U.S. v.
                       Devaney (S.D. Florida)

         Union International Presidents Sentenced on RICO Charges
                       On July 9, 2004, Byron Boyd Jr., international president, and Charles Little,
                       former international president of the United Transportation Union (UTU), were
                       sentenced after pleading guilty to labor racketeering conspiracy charges. The
                       scheme involved extorting bribes from attorneys in exchange for becoming or

Semiannual Report to the Congress                                                                 32
April 1, 2004–September 30, 2004
                                                                     Internal Union Investigations
       Labor Racketeering

                       remaining designated legal counsel (DLC), a highly coveted position for
                       attorneys who represent union members in Federal Employers’ Liability Act
                       cases. The DLC had access to union members to handle their railroad injury
                       cases in lawsuits against rail employers. Boyd and Little each received two
                       years’ imprisonment and three years’ probation and were each ordered to
                       forfeit to the United States $100,000 in racketeering proceeds. Both men
                       were also fined $10,000 each. Boyd admitted that he and Little, whom he
                       succeeded as international president, used their positions to direct UTU
                       officials Ralph Dennis and John Rookard to solicit and collect more than
                       $525,000 in cash payments from 34 DLCs. The cash was then used for
                       Little’s 1995 and 1999 campaigns, Boyd’s 2003 campaign, and other special
                       projects.
                       In other actions during this period, Rookard, Boyd’s special assistant, and
                       Dennis were each sentenced to three years’ probation and agreed to forfeit
                       the $45,000 that they received from the racketeering activity. Also, Rookard
                       got six months’ home confinement and Dennis was ordered to pay a $2,000
                       fine. This was a joint investigation with the FBI and DOL’s Office of Labor-
                       Management Standards (OLMS). U.S. v. Boyd, et al. (S.D. Texas)

         Grocery Store Chairman Sentenced for Making Illegal Payments
                       On April 22, 2004, Martin Vitale, former CEO and chairman of Twin County
                       Grocers was sentenced to six months’ incarceration and six months’ home
                       confinement and a $15,000 fine for embezzling funds from the firm to make
                       illegal labor payoffs and then deduct them as expenses on Twin County’s
                       corporate tax return. In September 2003, he pled guilty to conspiracy charges
                       for disguising embezzled funds as business expenses and conspiring to
                       make illegal payments to Joseph Rizzo, former president of United Food and
                       Commercial Workers Union Local 1262. In a scheme involving diverted
                       rebates due Twin County from the printing of circulars, $2.5 million was
                       siphoned off to Vitale, who used some of the money to make unlawful labor
                       payments to Rizzo. The investigation was conducted with the IRS, the FBI,
                       and the U.S. Postal Inspection Service. U.S. v. Vitale (D. New Jersey)

         Union Officials Sentenced for Misappropriating Union Funds
                       William Barnwell, a director with the Michigan Regional Council of Carpenters
                       (MRCC); Sandra Williamson, former executive administrative secretary of the
                       MRCC; and David Williamson, business agent with the Operating Engineers
                       Union Local 324, were sentenced on September 13, 2004, for
                       misappropriating the assets of the MRCC and on conspiracy charges. Sandra
                       Williamson was also convicted of making false statements to Federal
                       investigators. The three were ordered to pay restitution joint and severally of
                       $9,188, serve two years’ probation, and be debarred from the union for 13
                       years. Additionally, Barnwell and Sandra Williamson are to serve six months’
                       home detention each, and Barnwell and David Williamson were fined $10,000
                       and $3,000, respectively.
                       The investigation revealed that from 1997 to 1998, Barnwell ordered business
                       agents of the MRCC who were under his supervision to put aside their normal
                       duties and responsibilities as business agents and assist the Williamsons by

Semiannual Report to the Congress                                                                   33
April 1, 2004–September 30, 2004
                                                                       Internal Union Investigations
       Labor Racketeering

                       rough-framing their new home, which was under construction at that time.
                       During the time of this work, as many as a dozen MRCC business agents
                       participated in the construction while also collecting all of their regular salary
                       and fringe benefit contributions, costing the MRCC an estimated
                       misappropriation of between $23,000 and $32,000. This is an ongoing joint
                       investigation with the FBI, the IRS Criminal Investigations Division (IRS CID),
                       and DOL’s Employee Benefits Security Administration (EBSA). U.S. v.
                       Barnwell, et. al. (E.D. Michigan)

         Defendant Sentenced for Embezzlement
                       On August 25, 2004, Dorothy Weber, former office manager for the
                       Northwest Sheet Metal Organization Trust, was sentenced to 14 months’
                       incarceration and was ordered to pay $500,000 in restitution after pleading
                       guilty to state charges of theft in June 2004 for her scheme to embezzle
                       monies from the Trust’s Market Recovery Trust Fund. The investigation
                       revealed that from August 2000 through November 2002, Weber embezzled
                       monies from the fund that was established to subsidize union employer bids
                       in order to supplement labor costs, including wages and benefits, when
                       competing with nonunion contractors. Weber forged the signatures of trust
                       officials on Trust Fund checks and deposited them into her personal bank
                       account. The embezzlement was discovered subsequent to Weber’s
                       retirement in November 2002, when the new office manager was unable to
                       locate cancelled checks while attempting to reconcile bank statements.
                       During Weber’s employment at the Trust, she systematically removed all
                       cancelled checks that were issued to her and disguised them as legitimate
                       payments to union contractors in their computer system. This was a joint
                       investigation with the Monroe (Washington) Police Department, OLMS, and
                       EBSA. State of Washington v. Weber

         Former Union Official Sentenced for Embezzlement
                       On June 10, 2004, Robert Levine, former business agent and financial
                       secretary of the International Union of Painters and Allied Trades Local 1175,
                       was sentenced pursuant to his guilty plea of March 31, 2004, to charges of
                       embezzling monies from Local 1175 and from the Employee Retirement
                       Income Security Act (ERISA)-covered Local 1175’s Retraining and
                       Apprenticeship Fund. Levine was sentenced to one year in prison and three
                       years’ probation and was ordered to pay nearly $194,000 in restitution. The
                       investigation disclosed that from April 1999 to February 2003, he embezzled
                       monies of Local 1175 by issuing unauthorized checks to himself,
                       electronically transferring Local 1175’s funds to pay for unauthorized cash
                       withdrawals and charges from a union credit card, and using members’ cash
                       dues payments for his personal gain. This was a joint investigation with
                       OLMS. U.S. v. Levine (S.D. Florida)




Semiannual Report to the Congress                                                                      34
April 1, 2004–September 30, 2004
                                                               Labor-Management Investigations
       Labor Racketeering


Labor-Management Investigations
                       Labor-management relations cases involve corrupt relationships between
                       management and union officials. Typical labor-management cases range
                       from collusion between representatives of management and corrupt union
                       officials to the use of the threat of “labor problems” to extort money or
                       benefits from employers.

         Sentencing of Employee Establishes Precedent Under
         Taft-Hartley Act
                       On June 1, 2004, Steven Vincent, an employee of Toyota Motor
                       Manufacturing of Kentucky (TMMK), was sentenced to two years’
                       incarceration and two years’ probation for violating the Taft-Hartley Act. This
                       sentence and its indictment are significant in that they reflect a prosecution
                       under the Taft-Hartley Act, whereby prohibited employer payments are not
                       limited to those received by employee representatives, a labor organization,
                       or the officers or employees of labor organizations. Prohibited payments also
                       extend to payments to any of the employer’s employees in excess of normal
                       compensation for the purpose of causing the employee to influence other
                       employees in the exercise of their rights to organize and bargain collectively
                       with the employer.
                       Vincent pled guilty in February 2004 to actively leading and participating in
                       organizing attempts at TMMK, despite never being officially elected or
                       identified by his fellow employees as their representative and never being
                       officially connected to or recognized by the United Auto Workers (UAW) as a
                       union representative. He attempted to force TMMK to pay him $650,000 in
                       exchange for his promise to cease and combat UAW organizing attempts at
                       TMMK and to influence other employees from actively attempting to organize
                       the plant. The investigation was a joint effort with the FBI. U.S. v. Vincent
                       (E.D. Kentucky)

         Union Member Pleads Guilty to Racketeering Conspiracy
         Charges
                       On June 9, 2004, Brian Perry, a member of Laborers International Union of
                       North America Local 91, pled guilty to RICO conspiracy charges for his
                       participation with other union members in a violent scheme to extort both
                       local and out-of-town businesses of their right to hire and retain workers of
                       their choice at construction projects in Niagara County, New York. The use of
                       actual and threatened force, violence, and fear—including the fear of serious
                       bodily injury, economic harm, destruction of property, and workplace
                       sabotage—resulted in numerous injuries to those targeted by the defendants.
                       The investigation found that since 1996 high-ranking officers of Local 91,
                       including the business manager, president, and retired past president,
                       directed union members whose principal objective was to force employers to
                       hire workers selected by the defendants. The violence committed by the
                       defendants was not confined to construction sites but included innocent
                       bystanders and others. This was a four-year investigation conducted jointly


Semiannual Report to the Congress                                                                   35
April 1, 2004–September 30, 2004
                                                              Labor-Management Investigations
       Labor Racketeering

                       with the FBI, the New York State Police, the Niagara County Sheriff’s
                       Department, and the Niagara Falls Police Department. U.S. v. Perry (W.D.
                       New York)

         Mob Associate Sentenced to Six Years in Prison
                       On August 24, 2004, Anthony Guidice, a Gambino LCN associate and last of
                       10 defendants in a Hobbs Act extortion case, was sentenced to 72 months’
                       imprisonment and three years’ probation after pleading guilty in January 2003
                       to conspiring to commit extortion. The investigation found that between
                       December 2000 and April 2002, Guidice and two other defendants conspired
                       to extort more than $10,000 from the owners and operators of a clothing
                       manufacturer in New York City in order to gain labor peace. This was a joint
                       effort with the FBI, the New York City Police Department, and the Bronx
                       County District Attorney’s Office. U.S. v. Guidice (S.D. New York)




Semiannual Report to the Congress                                                                 36
April 1, 2004–September 30, 2004
           Legislative
        Recommendations

Legislative Recommendations
                       The Inspector General Act requires the OIG to review existing or proposed
                       legislation and regulations and to make recommendations in the Semiannual
                       Report concerning their impact on the economy and efficiency of the
                       Department’s programs and on the prevention of fraud and abuse.

         Allow DOL access to Wage Records
                       The Department of Labor and the Social Security Administration currently
                       have a memorandum of understanding (MOU) in place that allows state
                       workforce agencies to access Social Security data on individuals who apply
                       for Unemployment Insurance (UI). The MOU is a good first step. However, to
                       reduce overpayments in employee benefit programs, including UI and
                       Federal Employees’ Compensation Act (FECA), the Department and the OIG
                       need legislative authority to easily and expeditiously access state UI wage
                       records, SSA wage records, and wage information from the National
                       Directory of New Hires, which is maintained by the Department of Health and
                       Human Services.
                       A provision in the SUTA Dumping Prevention Act of 2004 (Public Law 108-
                       295), enables state agencies responsible for administration of unemployment
                       compensation programs to obtain access to the National Directory of New
                       Hires. By cross-matching UI claims against this new hire data, states could
                       better detect overpayments to UI claimants who have gone back to work but
                       continue to collect UI benefits. However, this law does not provide DOL nor
                       the OIG with access to the National Directory of New Hires.
                       Moreover, access to SSA and UI data would allow the Department to
                       measure the long-term impact of employment and training services on job
                       retention and earnings. Outcome information of this type for program
                       participants is otherwise difficult to obtain.

         Amend Pension Protection Laws
                       Legislative changes to ERISA and criminal penalties for ERISA violations
                       would enhance the protection of assets in pension plans. To this end, the
                       OIG recommends the following:
                         •   Expand the authority of EBSA to correct substandard benefit plan audits
                             and ensure auditors with poor records do not perform additional plan
                             audits. Changes should include providing EBSA with greater enforcement
                             authority over registration, suspension and debarment, and the ability to
                             levy civil penalties against employee benefit plan auditors. The ability to
                             correct substandard audits and take action against auditors is important
                             because benefit plan audits help protect participants and beneficiaries by
                             ensuring the proper value of plan assets and computation of benefits.

                         •   Repeal ERISA’s limited-scope audit exemption. This provision excludes
                             pension plan assets invested in banks, savings and loans, insurance
                             companies, and the like from audits of employee benefit plans. The
                             limited scope prevents independent public accountants auditing pension

Semiannual Report to the Congress                                                                     37
April 1, 2004–September 30, 2004
           Legislative
        Recommendations

                             plans from rendering an opinion on the plans’ financial statements in
                             accordance with professional auditing standards. These “no opinion”
                             audits provide no substantive assurance of asset integrity to plan
                             participants or the Department.

                         •   Require direct reporting of ERISA violations to DOL. Under current law, a
                             pension plan auditor who finds a potential ERISA violation is responsible
                             for reporting it to the plan administrator, but not directly to DOL. To
                             ensure improprieties are addressed we recommend that plan
                             administrators or auditors be required to report potential ERISA violations
                             directly to DOL. This would ensure the timely reporting of violations and
                             more actively involve accountants in safeguarding pension assets,
                             providing a first line of defense against abuse of workers’ pension plans.

                         •   Strengthen criminal penalties in Title 18 of the U.S. Code. Three sections
                             of Title 18 serve as the primary criminal enforcement tools for protecting
                             pension plans covered by ERISA. Embezzlement or theft from employee
                             pension and welfare plans is prohibited by Section 664, making false
                             statements in documents required by ERISA is prohibited by Section
                             1027, and giving or accepting bribes related to the operation of ERISA
                             covered plans is outlawed by Section 1954. Sections 664 and 1027
                             subject violators to 5 years’ imprisonment, while Section 1954 calls for up
                             to 3 years’ imprisonment. We believe that raising the maximum penalties
                             to 10 years for all three violations would serve as a greater deterrent and
                             further protect employee pension plans.

         Provide Authority to Ensure the Integrity of the Foreign Labor
         Certification Process
                       If DOL is to have a role in the H-1B specialty occupations foreign labor
                       certification process, it must have the statutory authority to ensure the
                       integrity of that process, including the ability to verify the accuracy of
                       information provided on labor condition applications. Currently, DOL is
                       statutorily required to certify such applications unless it determines them to
                       be “incomplete or obviously inaccurate.” Our concern with the Department’s
                       limited ability to ensure the integrity of the certification process is heightened
                       by the results of OIG analysis and investigations that show that the program
                       is susceptible to significant fraud and abuse, particularly by employers and
                       attorneys.
                       Moreover, we believe that vulnerabilities in the foreign labor certification
                       programs administered by DOL and other agencies could be remedied by the
                       following changes, some of which are under discussion by a workgroup
                       involving the OIG, ETA, OMB, and the Department of Homeland Security.
                         • All foreign nationals should have an eligibility determination by the U.S.
                           Citizenship and Immigration Services prior to the employer’s labor
                           certification application being reviewed by DOL.
                         • DOL should have latitude and authority to deny applications for any
                           misrepresentations or suspected fraud.
                         • Regulations should be job-specific and alien-specific, with documented
                           assurances that the position actually exists.

Semiannual Report to the Congress                                                                     38
April 1, 2004–September 30, 2004
           Legislative
        Recommendations

                         • Foreign labor certifications should have an expiration date.
                         • Substitutions of employees for approved certifications should be
                           prohibited.
                         • The sale, barter, and/or purchase of approved labor certifications and
                           applications by an employer, alien, agent, attorney, or otherwise
                           interested party should be prohibited and vigorously prosecuted.

         Enhance the WIA Program through Reauthorization
                       The reauthorization of the Workforce Investment Act (WIA) provides an
                       opportunity to revise WIA programs to better achieve their goals. Based on
                       our audit work, the OIG recommends the following:
                         • Improve state and local reporting of WIA obligations. A disagreement
                           between ETA and the states about the level of funds available to states
                           drew attention to the way WIA obligations and expenditures are reported.
                           The OIG’s prior work in nine states and Puerto Rico showed that
                           obligations provide a more useful measure for assessing states’ WIA
                           funding status if obligations accurately reflect legally committed funds and
                           are consistently reported.
                         • Modify WIA to encourage the participation of training providers. WIA
                           participants use individual training accounts to obtain services from
                           approved eligible training providers. However, performance reporting and
                           eligibility requirements for training providers have made some potential
                           providers unwilling to serve WIA participants.
                         • Support amendments to resolve uncertainty about the release of WIA
                           participants’ personally identifying information for WIA reporting purposes.
                           Some training providers are hesitant to disclose participant data to states
                           for fear of violating the Family Education Rights and Privacy Act.
                         • Include standard definitions that allow for consistent measurement of
                           performance across the states. The wide latitude states have to define
                           key terms has resulted in a lack of consistency in states’ reporting against
                           performance measures. This performance information affects the level of
                           incentive funds the states will receive in future years.

         Improve the Integrity of the FECA Program
                       The OIG continues to support reforms to improve the integrity of the Federal
                       Employees’ Compensation Act program. Implementing the following changes
                       would result in significant savings for the Federal government:
                         • Move claimants into a form of retirement after a certain age if they are still
                           injured.
                         • Return a 3-day waiting period to the beginning of the 45-day continuation
                           of pay process to require employees to use accrued sick leave or leave
                           without pay before their benefits begin.
                         • Grant authority to DOL to access Social Security wage records in order to
                           identify claimants defrauding the program.




Semiannual Report to the Congress                                                                      39
April 1, 2004–September 30, 2004
                 Appendix


Appendix
Requirements Under the Inspector General Act of 1978

Section 4(a)(2) - Review of Legislation and Regulation.............................................................. 37

Section 5(a)(1) - Significant Problems, Abuses, and Deficiencies .............................................. All

Section 5(a)(2) - Recommendations with Respect to Significant
Problems, Abuses, and Deficiencies ......................................................................................... All

Section 5(a)(3) - Prior Significant Recommendations on Which
Corrective Action Has Not Been Completed............................................................................... 47

Section 5(a)(4) - Matters Referred to Prosecutive Authorities ...................................................... 2

Section 5(a)(5) and Section 6(b)(2) - Summary of Instances Where
Information Was Refused ...................................................................................................... None

Section 5(a)(6) - List of Audit Reports ........................................................................................ 44

Section 5(a)(7) - Summary of Significant Reports ..................................................................... All

Section 5(a)(8) - Statistical Tables on Management Decisions on Questioned Costs................ 42

Section 5(a)(9) - Statistical Tables on Management Decisions on
Recommendations That Funds Be Put to Better Use ................................................................. 41

Section 5(a)(10) - Summary of Each Audit Report over Six Months Old for
Which No Management Decision Has Been Made ..................................................................... 47

Section 5(a)(11) - Description and Explanation for Any Significant Revised
Management Decision ........................................................................................................... None

Section 5(a)(12) - Information on Any Significant Management Decisions with
Which the Inspector General Disagrees ................................................................................ None



Requirements Under Senate Report No. 96-829

Resolution of Audits .................................................................................................................... 44

Money Owed to the Department ................................................................................................. 43




Semiannual Report to the Congress                                                                                                        40
April 1, 2004–September 30, 2004
                                                                    Funds Put to Better Use
              Appendix



                                      Agreed to by DOL
                                                                    Number of    Dollar Value
                                                                     Reports      ($ millions)
For which no management decision had been made as of the
commencement of the reporting period                                     1              428.0
Issued during the reporting period
         Subtotal
For which management decision was made during the reporting
period:                                                                  0                0.0
  •    Dollar value of recommendations that were agreed to by
       management                                                                         0.0
  •    Dollar value of recommendations that were not agreed to by
       management                                                                         0.0
  For which no management decision had been made as of the
  end of the reporting period                                            1              428.0



                                     Implemented by DOL
                                                                    Number of    Dollar Value
                                                                     Reports      ($ millions)
For which final action had not been taken as of the commencement
of the reporting period                                                  6               12.8
For which management or appeal decisions were made during the
reporting period                                                         0                0.0

         Subtotals
                                                                         6               12.8
For which final action was taken during the reporting period:                             0.0
  •    Dollar value of recommendations that were actually
       completed                                                                          0.0
  •    Dollar value of recommendations that management has
       subsequently concluded should not or could not be                                  0.0
       implemented or completed
For which no final action had been taken by the end of the period        6               12.8




Semiannual Report to the Congress                                                             41
April 1, 2004–September 30, 2004
                                                                              Resolution Activity Related to
               Appendix                                             Inspector General Issued Audit Reports


                                                Questioned Costs
                                                                                        Number of           Disallowed
                                                                                         Reports                 Costs
                                                                                                            ($ millions)
For which no management decision had been made as of the                                     26                     20.0
commencement of the reporting period (as adjusted)
Issued during the reporting period                                                           14                     10.5
          Subtotal                                                                           40                     30.5
For which a management decision was made during the reporting
period
     •   Dollar value of disallowed costs                                                                             7.7

     •   Dollar value of costs not disallowed                                                                         3.5
For which no management decision had been made as of the end                                 30                     19.3
of the reporting period
For which no management decision has been made within six                                    12                       9.4
months of issuance


                                                 Disallowed Costs
                                                                                        Number of           Disallowed
                                                                                         Reports                 Costs
                                                                                                            ($ millions)
For which final action had not been taken as of the commencement                             61                  146.1
of the reporting period (as adjusted)*
For which management or appeal decisions were made during the                                19                       7.7
reporting period
         Subtotal                                                                            74                    153.8
For which final action was taken during the reporting period**
     •   Dollar value of disallowed costs that were recovered                                                         7.6

     •   Dollar value of disallowed costs that were written off by                                                    .03
         management
Dollar value of disallowed costs that entered appeal status                                                           4.7
For which no final action had been taken by the end of the                                   69                    141.5
reporting period
*         Does not include $19.8 million of disallowed costs that are under appeal.
**        Partial recovery/write-offs are reported in the period in which they occur. Therefore, many audit reports will
          remain open awaiting final recoveries/write-offs to be recorded.




Semiannual Report to the Congress                                                                                          42
April 1, 2004–September 30, 2004
                                                          Delinquent Debts Owed to DOL
               Appendix
                                                  (As of September 30, 2004 – $ in millions)



                                     Accounts        Accounts      Accounts
                 Agency/Program     Receivable      Receivable    Receivable
                                       Current      Delinquent         Total

                 BLS                        0.1            0.1            0.2
                 EBSA                       8.5            8.3           16.8

                 Black Lung               38.0             2.4           40.4
                 FECA                     46.2             2.2           48.4

                 Back Wage                21.6            15.5           37.1

                 Longshore                 1.3             2.0            3.3
                 CMP                       4.4             .04            4.4
                 ETA                       3.4             3.0            6.4
                 MSHA                     22.6             2.7           25.3
                 OSHA                     60.1            10.4           70.5
                 Total                   206.2            46.6          252.8



Note: These figures are provided by DOL agencies and are unaudited and may represent
estimates. Amounts due to the Unemployment Trust Fund (interagency receivables, state
unemployment taxes and benefit overpayments) are not included. Amounts due from other
Federal agencies for FECA workers’ compensation benefits paid are not included.




Semiannual Report to the Congress                                                         43
April 1, 2004–September 30, 2004
                                                                                       Final Audit Reports Issued
                        Appendix


Program Name                                           Date        Report             Number of    Questioned    Monetary
Name of Report                                        Issued       Number            Nonmonetary     Costs        Impact
                                                                                   Recommendations    ($)           ($)
                                                      Employment and Training
Veterans Employment and Training
Single Audit: United States Veterans Initiative         4/30/04 22-04-508-02-201          1
Foreign Labor Certification
Restoring Section 245(i) of the Immigration and         9/30/04 06-04-004-03-321          2
Nationality Act Created A Flood of Poor Quality Foreign
Labor Certification Applications Predominantly for
Aliens Without Legal Work Status
Job Training Partnership Act
Single Audit: Bennett College                            9/3/04 22-04-510-03-340          1             50,645
Single Audit: Phoenix Indian Center, Inc.               8/20/04 22-04-533-03-340          4
Indian and Native American Program
Evaluation of the Alabama Inter-Tribal Council          9/30/04 04-04-006-03-355          4                          4,680
Older Workers Programs
Single Audit: State of Wyoming                           8/5/04 22-04-519-03-360          1
Single Audit: Commonwealth of Massachusetts             9/24/04 22-04-559-03-360          1             69,774
Single Audit: Ogalala Sioux Tribe                       9/24/04 22-04-562-03-360          1            571,319
Job Corps
Job Corps Performance Measures                          9/30/04 09-04-004-03-370          3
Allegations of Questionable Accounting Practices by      9/8/04 21-04-007-03-370          1
Applied Technology Systems, Inc.
Welfare-to-Work Program
Performance Audit of SFWIB WtW Formula Grant            9/30/04 04-04-002-03-386          3          8,406,966
Single Audit: The Chattanooga Area Urban                8/16/04 22-04-534-03-386          7
Single Audit: National Homes Trust, Inc.                8/16/04 22-04-535-03-386          2
Single Audit: Madison County Commission                  9/3/04 22-04-555-03-386          3             11,345
Single Audit: Family Crisis Center                      9/28/04 22-04-557-03-386          1
Workforce Investment Act
Single Audit: State of Oklahoma                         4/30/04 22-04-520-03-390          3
Single Audit: Council of Southern West Virginia         8/16/04 22-04-527-03-390          2
Single Audit: United Sioux Tribe of South Dakota        8/30/04 22-04-531-03-390          2
Development Corporation
Single Audit: Ogalala Sioux Tribe                        5/7/04 22-04-543-03-390          7            476,733
Single Audit: State of New York                          9/9/04 22-04-558-03-390          2
Single Audit: Workforce Partnership of Greater Rhode 9/30/04 22-04-572-03-390             2
Island
Goal Totals                                                            21                53          9,586,782       4,680
                                                          Worker Benefits
Unemployment Insurance Program
Texas Workforce Commission’s Costs Charged to DOL 7/23/04 03-04-002-03-315                5
Grants During 9/1/1997–8/31/2001
New Jersey DOL’s ADP/IT Central Services Costs          6/21/04 03-04-003-03-315          5            475,149
Charged to DOL Grants During 7/1/1996–6/30/1999
Kentucky WDC’s ADP/IT Central Services Costs            7/16/04 03-04-005-03-315          0
Charges to Grants During 7/1/1996–6/30/2000
New Hires Detection is a Better Method for Establishing 9/30/04 05-04-002-03-315          5
UI Overpayments than the Wage UI/Benefit Crossmatch
Single Audit: State of Rhode Island                     8/31/04 22-04-561-03-315          5            175,715


Semiannual Report to the Congress                                                                       44
April 1, 2004–September 30, 2004
                                                                                          Final Audit Reports Issued
                        Appendix


Program Name                                           Date        Report         Number of    Questioned          Monetary
Name of Report                                        Issued       Number        Nonmonetary     Costs              Impact
                                                                               Recommendations    ($)                 ($)
FISMA Audit: State of Missouri UI Tax and Benefit     9/30/04 23-04-016-03-315       2
System
FISMA Audit: State of Washington UI Tax and Benefit      9/30/04 23-04-017-03-315           1
System
FISMA Audit: State of Florida UI Tax and Benefit         9/30/04 23-04-018-03-315           1
System
FISMA Audit: ETA UI Interstate Connection Network        9/30/04 23-04-027-03-315           12
State Employment Security Agency
Despite Assurances to the Contrary DOL Has Not           9/30/04 06-04-002-03-325           8
Maintained Accountability Over Equity in Real Property
Held By States
State Workforce Agencies’ WIA Grant Programs Are         9/30/04 06-04-003-03-325           3
Accruing Federal Equity in Real Properties
Trade Adjustment Assistance
Alert Report: Health Coverage Tax Credit                 9/30/04 02-04-204-03-330           4                      15,000,000
Single Audit: State of Kansas                            8/19/04 22-04-541-03-330           3             48,144
Federal Employees Compensation
Evaluation of FECA Responsiveness and Customer           9/30/04 02-04-203-04-431           2
Surveys
Employee Benefit Security Program
Allegations Related to EFAST Information Security        9/30/04 23-04-008-12-001            4
FISMA Audit: EBSA’s EFAST                                9/9/04 23-04-011-12-001            51
EBSA Needs Additional Authority to Improve the Quality 9/30/04 09-04-005-12-121              6
of Employee Benefit Plan Audits.
Goal Totals                                                             17                 117         699,008     15,000,000
                                            Worker Safety, Health, and Workplace Rights
OSHA Future System Development Efforts Require           9/30/04 23-04-009-10-001           4
Greater Use of Best Practices
Audit of General Application and Security Controls for   9/30/04 23-04-021-10-001           1
Selected OSHA IT Systems that Support the Financial
Statements FY 2004
Audit of General, Application, and Security Controls for 9/30/04 23-04-019-06-001           29
Selected OSHA IT Systems that Support the Financial
Statements FY 2004
Goal Totals                                                             3                   34
                                                      Departmental Management
Office of the Secretary
Evaluation of the Small and Disadvantaged Business       4/29/04 21-04-004-01-100           10
Utilization Program: FYs 1999–2002
FISMA Audit: ELAWS                                       9/30/04 23-04-029-01-001           3
Administrative Law Judges
FISMA Audit: OALJ Wide Area Network                       9/9/04 23-04-013-01-060           17
FISMA Audit: OALJ Case Tracking System                    9/9/04 23-04-014-01-060           19
ETA Management
Single Audit: State of West Virginia                     8/31/04 22-04-516-03-001           8
Single Audit: State of North Carolina                     8/3/04 22-04-518-03-001           6              5,085
Single Audit: Navajo Nation Tribal Entities               5/5/04 22-04-544-03-001           11            66,080
Single Audit: State of Montana                           8/31/04 22-04-545-03-001           6             57,000
Single Audit: Commonwealth of Kentucky                    9/2/04 22-04-548-03-001           5                  0


Semiannual Report to the Congress                                                                         45
April 1, 2004–September 30, 2004
                                                                                            Final Audit Reports Issued
                        Appendix


Program Name                                                Date         Report            Number of    Questioned    Monetary
Name of Report                                             Issued        Number           Nonmonetary     Costs        Impact
                                                                                        Recommendations    ($)           ($)
Single Audit: AFL CIO Appalachian Council                  9/29/04   22-04-553-03-001          5                 0
Single Audit: State of Ohio                                9/30/04   22-04-563-03-001          4                 0
Single Audit: State of California                          9/30/04   22-04-565-03-001         2                  0
Single Audit: 1199 SEIU Training and Upgrading Fund        9/30/04   22-04-567-03-001         2             60,158
Audit of General, Application, and Security Controls for   9/30/04   23-04-023-03-001         77
Selected ETA IT Systems that Support the Financial
Statements FY 2004
ESA Management
Audit of General, Application, and Security Controls for   9/30/04 23-04-024-04-001           35
Selected ESA IT Systems that Support the Financial
Statements FY 2004
OASAM Management
Audit of General, Application, and Security Controls for   9/17/04 23-04-020-07-001
Selected OASAM IT Systems that Support the Financial
Statements FY 2004
Department-wide Audit Findings Resulting from Audit of     9/30/04 23-04-025-07-001            3
General, Application, and Security Controls Supporting
the FY 2004 Financial Statements
FISMA Audit: OASAM Employee Computer                       9/29/04 23-04-028-07-001           31
Network/Departmental Computer Network
OIG Independent Verification and Validation of Selected    9/30/04 23-04-033-07-001
Agencies’ Plans of Action and Milestones
Business Operations Center
Assistant Inspector General’s Report on Applying           7/21/04 21-04-005-07-711
Agreed-Upon Procedures: Public Law 108-199
OIG Management
Confidential Funds                                         7/16/04 05-04-008-09-001            1
Office of the Chief Financial Officer
The e-Payroll Quicksilver Project: Resolution Status of    7/8/04    23-04-012-13-001          2
Prior Recommendations and Project Plan Not
Effectively Communicating Progress
The e-Payroll Quicksilver Project: “Go/No Go” Decision,    8/18/04 23-04-015-13-001            4
Concerns Regarding Parallel Testing, Training and
Resolution Status of Prior Recommendations, Period
Ending 8/12/2004
Multi Agency Programs
Quality Control Review: Arkansas Employment Security       4/7/04    22-04-540-50-598
Department
Quality Control Review: National Council on the Aging       5/5/04 22-04-542-50-598
Quality Control Review: Upper Rio Grande WOB               9/27/04 22-04-571-50-598
Goal Totals                                                               26                  251          188,323

Report Totals                                                              67                 455        10,474,113   15,004,680




Semiannual Report to the Congress                                                                            46
April 1, 2004–September 30, 2004
                                                          Unresolved Reports over Six Months Old
                          Appendix


                                                                                                           Questioned
   Agency/        Date                                                                   Number of
                                      Name of Audit                  Report Number                           Costs
   Program       Issued                                                               Recommendations
                                                                                                              ($)
                                   Non-monetary Recommendations and Questioned Costs
                      Being Resolved in Conjunction with DOL Consolidated Financial Statement Audit
CFO/Admin   2/27/98 FY 97 Consolidated Financials                          12-98-002-13-001        1
CFO/Admin   2/29/00 FY 99 DOL Consolidated Financial Statement             12-00-003-13-001        2
CFO/Admin   7/20/00 FY 99 DOL Management Advisory Comments                 12-00-006-13-001        2
CFO/Admin   3/27/02 DOL Consolidated Financial Statement Findings and      22-02-004-13-001        2
                     Recommendations
CFO/Admin   3/31/03 Performance and Accountability Audit, CFO Findings     22-04-002-13-001        8
                     and Recommendations
          Final Management Decision Issued by Agency Did Not Resolve–OIG Negotiating with Program Agency
ETA/JTPA    9/25/98 Cherokee Nation                                        06-98-009-03-340        1                 0
ETA/OJC     9/22/99 Talking Leaves Job Corps Center                        06-99-010-03-370        9                 0
ETA/UIS     4/17/00 Single Audit: State of Louisiana                       18-00-534-03-315        2                 0
ETA/SESA    8/23/00 Single Audit: State of Florida                         12-00-514-03-325        3                 0
ETA/JTPA    3/6/00 Single Audit: State of Iowa–1998                        18-00-529-03-340        1                 0
ETA/JTPA    9/29/00 Single Audit: Commonwealth of Kentucky–1998            12-00-528-03-340        4                 0
ETA/UIS     9/21/01 Ohio Department of Job and Family Services’ Y2K        04-01-006-03-315        4         1,085,283
                     Grant Expenditures
ETA/UIS     3/22/02 Massachusetts Department of Labor and Workforce        03-02-001-03-315        1                0
ETA/DINAP   2/13/02 Dallas Inter-Tribal Center                             06-02-001-03-355        1                0
DOL/Multi   8/6/02 Single Audit: State of Florida                          22-02-512-50-598        2           38,799
DOL/Multi   7/19/02 Single Audit: State of Ohio                            22-02-516-50-598        5                0
ETA/Admin   5/28/03 Single Audit: State of Louisiana                       22-03-502-03-001        2                0
ETA/Admin   9/29/03 Single Audit: Sokaogan Chippewa Community              22-03-515-03-001        3           29,394
ETA/UIS     9/30/03 Improved Quality Control Practices Within the Benefit  22-03-009-03-315        7                0
                     Accuracy Measurement System Could Save the
                     Unemployment Insurance Trust Fund Approximately
                     $400 Million Annually
ETA/UIS     9/29/03 Single Audit: State of Maryland                        22-03-526-03-315        1                0
ETA/UIS     9/30/03 Single Audit: State of Colorado                        22-03-529-03-315        2                0
ETA/DSFP    3/22/04 Arkansas Human Development Corporation                 21-04-001-03-365        1
                                   Final Management Decision Being Evaluated by the OIG
                     State of Maryland Workforce Agency UI Tax and Benefit
ETA/UIS     9/13/02                                                        23-02-008-03-315       14                0
                     Information System
ETA/UIS     9/13/02 UI Tax and Benefit Information System Security – ETA 23-02-009-03-315         17                0
CFO/Admin   12/19/02 DOLAR$ Application Control Review                     23-02-003-13-001        3                0
ETA/Admin   9/30/02 Single Audit: DC Department of Employment Services     22-02-508-03-001        4                0
ETA/JTPA    4/24/02 Single Audit: Commonwealth of Puerto Rico, 1998        22-02-509-03-340        3          225,273
VETS/Admin 9/22/03 Veterans’ Employment and Training Department of         23-03-012-02-001       18                0
                     Unemployment
                     UI Tax and Benefit Information System Security–
ETA/UIS     3/11/03                                                        23-03-003-03-315       55                0
                     Michigan
                     UI Tax and Benefit Information System Security–
ETA/UIS     2/27/03                                                        23-03-005-03-315        1                0
                     California
ETA/DSFP    9/8/03 Rural Missouri, Inc.                                    05-03-004-03-365        1                0
ETA/WIA     9/29/03 Single Audit: Utah                                     22-03-528-03-390        3           22,480
MSHA/Admin 9/22/03 GISRA Audit: Imaging Management System                  23-03-011-06-001        1                0
OSHA/Admin 3/31/03 2002 GISRA Audit – OSHA                                 23-03-002-10-001        7                0
BLS/Admin   3/31/03 2002 GISRA Audit of BLS CES                            23-03-001-11-001        1                0
BLS/Admin   9/22/03 GISRA Audit of BLS                                     23-03-013-11-001        3                0
ETA/Admin   2/3/04 Single Audit – Boston Private Industry Council, Inc.    22-04-500-03-001        1                0


Semiannual Report to the Congress                                                               47
April 1, 2004–September 30, 2004
                                                                Unresolved Reports over Six Months Old
                          Appendix


                                                                                                                  Questioned
   Agency/        Date                                                                             Number of
                                         Name of Audit                       Report Number                          Costs
   Program       Issued                                                                         Recommendations
                                                                                                                     ($)
ETA/Admin       3/18/04
                     Single Audit – State of Illinois                        22-04-507-03-001   1                          0
ETA/Admin       3/18/04
                     Single Audit – New Mexico Department of Labor           22-04-514-03-001   41                   375,301
ETA/Admin       3/19/04
                     Single Audit – State of California                      22-04-524-03-001   2                          0
ETA/WIA         3/31/04
                     Ohio’s Workforce Investment Program                     05-04-004-03-390    5                         0
ETA/WIA         3/18/04
                     Single Audit – Seattle Indian Center                    22-04-502-03-390   2                          0
                     General Controls and Security for Selected ESA IT
ESA/Admin    3/31/04 Systems that Support the Department’s Financial         23-04-002-04-001   13                         0
                     Statements–September 30, 2003
                     General Controls and Security for Selected OCFO IT
OCFO/Admin 3/31/04 Systems that Support the Department’s Financial           23-04-004-13-001   18                         0
                     Statements–September 30, 2003
                     The E-Payroll Quicksilver Project: Status and Concerns,
OCFO/Admin 3/31/04                                                           23-04-010-13-001   5                          0
                     Period Ending March 22, 2004
                                          Final Management Decision Being Appealed
ETA/SESA     12/8/99 Puerto Rico Department of Labor and Human               02-00-203-03-325   6                          0
                     Resources
ETA/DOWP     3/14/03 Farmers Union STEP Waco, Texas                          06-03-003-03-360    8                   568,680
           Final Management Decision Not Yet Issued–Agency Awaiting Response from Internal Revenue Service
EBSA         3/29/02 Improved Oversight of Cash Balance Plan Lump Sum        09-02-001-12-121   2                          0
                     Distributions Is Needed
                                     Final Management Decision Not Yet Issued by Agency
ETA/UIS      9/21/01 California Employment Development Department=s          04-01-008-03-315   5                    848,643
                     Year 2000 Grant Expenditures
ETA/UIS      1/25/02 New York AUP Year 2000 Grant Expenditures               04-02-003-03-315    4                  3,976,331
ETA/Admin    4/24/03 Single Audit: State of Michigan Department of           22-03-505-03-001   2                           0
                     Unemployment
ETA/Admin    4/30/03 Single Audit: State of Indiana                          22-03-512-03-001   4                     50,707
ETA/Admin    5/29/03 Single Audit: State of Rhode Island                     22-03-514-03-001   7                    578,000
ETA/WIA      9/30/03 Services Provided and Outcomes Obtained for             02-03-204-03-390   10                         0
                     Participants Enrolled In the WIA Dislocated Workers
                     Program During Program Year 2000
ETA/WIA      9/30/03 Evaluation of WIA Youth Program                         06-03-006-03-390   1                          0
                     Evaluation of OSHA’s Handling of Immigrant Fatalities
OSHA/Admin 9/30/03                                                           21-03-023-10-001   1                          0
                     in the Workplace
                     Rehabilitation Services and Veterans Programs,
VETS/Admin 12/4/03                                                           06-04-001-02-001   2                   1,593,700
                     Albuquerque, New Mexico
ETA/Admin    3/18/04 Single Audit – Commonwealth of Kentucky                 22-04-505-03-001   8                           0
ETA/Admin    3/18/04 Single Audit – Government of the District of Columbia   22-04-517-03-001   3                           0
ETA/SESA     3/31/04 Evaluation of North Carolina Growers Association        04-04-008-03-325   4                           0
Total Nonmonetary Recommendations and Questioned Costs                                         350                  9,392,591
                                                         Cost Efficiencies
ETA/UIS        9/30/03 Improved Quality Control Practices Within the Benefit 22-03-009-03-315          1          428,000,000
                        Accuracy Measurement System Could Save the
                        Unemployment Insurance Trust Fund Approximately
                        $400 Million Annually
Total Cost Efficiencies                                                                                1          428,000,000
Total Nonmonetary Recommendations, Questioned Costs and Cost Efficiencies                             351         437,392,591




Semiannual Report to the Congress                                                                           48
April 1, 2004–September 30, 2004
                                                                Investigative Statistics
              Appendix




                                                      Division Totals             Totals
Cases Opened:
   Program Fraud                                                  144
   Labor Racketeering                                              47                191

Cases Closed:
   Program Fraud                                                  177
   Labor Racketeering                                              51                228

Cases Referred for Prosecution:                                   137
   Program Fraud                                                  159                296
   Labor Racketeering

Cases Referred for Administrative/Civil Action:
   Program Fraud                                                   64
   Labor Racketeering                                              12                 76

Indictments:
   Program Fraud                                                  167
   Labor Racketeering                                             130                297

Convictions:
  Program Fraud                                                   113
  Labor Racketeering                                               73                186

Debarments:
   Program Fraud                                                   20
   Labor Racketeering                                              43                 63

Recoveries, Cost Efficiencies, Restitutions, Fines/
   Penalties, Forfeitures, and Civil Monetary
   Actions:
   Program Fraud                                          $75,771,582
   Labor Racketeering                                     $27,620,004      $103,391,586




Semiannual Report to the Congress                                                      49
April 1, 2004–September 30, 2004
                                                              Investigative Statistics
              Appendix



Recoveries:                                                   $1,432,314
(The dollar amount/value of an agency’s action to
recover or reprogram funds or to make other adjustments
in response to OIG investigations)


Cost Efficiencies:                                            $1,851,614
(The one-time or per-annum dollar amount/value of
management’s commitment, in response to OIG investigations,
to utilize the government’s resources more efficiently)


Restitutions:                                                 $79,266,524
(The dollar amount/value of restitutions resulting from
OIG criminal investigations)


Fines/Penalties:                                              $558,561
(The dollar amount/value of fines, assessments, seizures,
investigative/court costs, and other penalties resulting
from OIG criminal investigations)


Civil Monetary Actions:                                       $20,282,573
(The dollar amount/value of forfeitures, settlements,
damages, judgments, court costs, or other penalties
resulting from OIG civil investigations)


Total                                                         $103,391,586




Semiannual Report to the Congress                                                    50
April 1, 2004–September 30, 2004
                                                                            Investigative Case List
              Appendix


                                                      Convicted Sentenced    Monetary
                                          Foreign Labor Certification
                    Alamgir, Mohamad                     X
                    Bablu, Mohamad                       X
                    Beiner, April                        X
                    Bennett, Marian                       X
                    Bertucci, Jessica                     X
                    Bray, Dorothy                         X
                    Center, Henry                        X
                    Cheema, Nasir                        X
                    Corey, Joanne                         X
                    Demalteris, Lillian                  X
                    Detrojan, Yuri                                    X
                    Dhingra, Praveedra                   X
                    Diack, Abdoulaye                                  X
                    Diagne, Bathie                                    X          $100
                    Dimele, Cynthia                      X
                    Fall, Matar                                       X
                    Farella, Frank                        X
                    Flores, Teasha                       X
                    Galbo, Mario                         X            X
                    Giandanoto, Melissa                  X
                    Graf, Peter                                       X      $308,750
                    Greenblatt, Norman                    X           X
                    Grimes-Hardie, Barry                 X
                    Gutierrez, Debra                      X
                    Javid, Kalid                         X            X        $1,100
                    Kaufman, Sidney                       X
                    Kelly, Karen                          X
                    Kolomitsyev, Andre                                X
                    Kratsov, Igor                                     X
                    Laryea, Adelaide                     X
                    Lim, Eun                                          X          $500
                    Lutterodt, Anthony                   X            X          $100
                    Matousek, Milan                      X            X          $100
                    Matsiouk, Yuri                                    X
                    Mederos, Paul                        X
                    Patel, Nayan                         X
                    Pioppo, John                         X            X
                    Poteat, Cassandra                    X
                    Qazi, Muhammed                       X            X          $100
                    Rahman, Majipur                      X            X          $100
                    Raiser, Cynthia                      X
                    Sahib, Noor                          X            X
                    Saifi-Chowdhury, Mohamad             X
                    Santanastasio, Louise                X
                    Scarpa, Mildred                      X
                    Seck, Awa                                         X
                    Smith, Doris                                      X       $10,000
                    Sohna, Mariam                                     X
                    Vera, Teresa                          X
                                                         37           21     $320,850




Semiannual Report to the Congress                                                                 51
April 1, 2004–September 30, 2004
                                                                            Investigative Case List
              Appendix


                                                      Convicted Sentenced    Monetary
                                            Employee Misconduct
                    Brown, Kevin                          X
                    “Pre-trial Diversion”                X          X         $78,000
                    Medley, Alonzo                       X          X          $1,228
                    Roberts, Lori                        X
                    Robinson, Tracey                     X
                    Rudolph, Joe                         X
                    Simon, Chester                       X
                    “Pre-trial Diversion”                X          X          $1,300
                                                          8         3         $80,528
                                              ESA - Black Lung
                    Massey, Linda                         X         X         $13,086
                    “Pre-trial Diversion”                X          X         $23,159
                    “Pre-trial Diversion”                X          X          $7,115
                    Watts, Robert                        X
                    Williams, Anthony                    X
                                                          5         3         $43,360
                                                ESA – FECA
                    Banks, Isadore                                  X         $62,609
                    Bentley, Thomas                      X          X          $1,000
                    Blevins, Charles                                X        $112,873
                    Brummett, Anthony                               X         $76,168
                    Burke, Margaret                      X          X         $28,083
                    Cazeno, Erroll                       X
                    Cook, Danny                                     X        $724,100
                    Cooper, Mary                                    X         $42,188
                    Eubanks, Ivey                                   X         $34,898
                    Feldman, Edward, M.D.                           X          $5,100
                    Garth, Sandra                        X
                    Graves-Garner, Sherri                           X        $114,465
                    “Pre-trial Diversion”                X          X          $7,960
                    Harms, Michael                                  X        $354,990
                    “Pre-trial Diversion”                X          X         $16,050
                    Hilliard, Michael                    X
                    Jordan, June                         X          X         $75,100
                    Lambert, Shane                       X
                    Menth, Elizabeth                      X         X          $4,602
                    Morrison, James, M.D.                 X
                    Parker, Donna                         X
                    Parrelli-Ball, Tina                             X         $57,879
                    Skahen, Brad                         X
                    Stakely, James, M.D.                            X          $1,806
                    Vickers, Norman                                 X         $39,962
                    Vieira, Matthew                                 X         $13,146
                    White, Carl                                     X
                    Wright, Robert                       X
                    Young, Scott                         X
                                                         15        20       $1,772,979
                                              ESA – Longshore
                    Pyzik, Edward                         X
                                                          1
                                            ESA - Wage And Hour
                    Adkins, Robert                                  X            $100


Semiannual Report to the Congress                                                                 52
April 1, 2004–September 30, 2004
                                                                                Investigative Case List
              Appendix


                                                        Convicted   Sentenced     Monetary
                    Rai, Harpal                            X
                    “Sealed”                               X
                    “Sealed”                               X
                    San Luis Gonzaga Construction Co.                  X               $50
                    Talao, Gerardina                                   X               $50
                    Talao, Virgilio                                    X               $50
                    Zakheim, Steve                        X
                                                          4            4              $250
                                               ETA – Job Corps
                    Gulley, Sharmon                                     X           $8,397
                                                                        1           $8,397
                                         ETA – Trade Adjustment Assistance
                    Vargas, Esther                          X           X         $125,100
                                                            1           1         $125,100
                                       ETA – Unemployment Insurance/SWA
                    Barrera-Olivares, Mario                 X           X        $1,332,324
                    Benitez, Hector                                     X
                    Bonilla, Ramon                                      X       $58,770,074
                    Chandler, Fatiha                        X           X             $105
                    Chase, Ashley                                       X           $12,771
                    Chau, Kevin                             X
                    Clark-Meddings, Sandra                  X           X             $500
                    Comeaux, Aros                                       X          $17,589
                    DiBartolo, Victor                                   X         $645,470
                    Dinh, Coung                             X
                    Engel, Donald                           X
                    Espino, Ruben                           X
                    Espino-Martinez, Elisa                  X           X
                    Espino-Martinez, Manuel                 X           X         $800,989
                    Garcia-Marmolejo, Gustavo                           X             $200
                    Glynn, Eric                                         X           $9,377
                    Harris, Darryl                          X
                    Henry, Stanley                          X           X          $96,933
                    Kent, Cedric                            X
                    Monge-Pascacio, Hipolito                X
                    Mozaffary, Pouriya                                  X           $1,860
                    Murillo, David                          X
                    Ngo, Tan                                            X         $806,135
                    Nguy, Binh                              X
                    Peipong, Xue                            X
                    Petro, Roger                            X           X            $739
                    Phillips, Tommy                         X           X           $9,863
                    Pina, Misael                            X
                    Prewitt-Garrett, Chris                  X           X           $6,368
                    Ramirez De La Rosa, Guadalupe           X           X         $225,700
                    Ramos, Angel                            X           X           $3,593
                    Richie, Irma                            X
                    Richie, Mary                            X
                    Roberts, Lucinda                        X           X           $7,838
                    Scott, Lisa                                         X          $27,325
                    Sherpa Software Group, L.P.                         X         $552,665
                    Smith, David                            X
                    Soto, Nelson                            X


Semiannual Report to the Congress                                                                     53
April 1, 2004–September 30, 2004
                                                                              Investigative Case List
              Appendix


                                                        Convicted Sentenced     Monetary
                    Vo, April                               X         X          $38,265
                    Vo, Tuyen                               X
                    Ziemkiewicz, Michael                    X         X             $972
                                                           30        25       $63,367,655
                                              ETA – Welfare-to-Work
                    Friedlander, Paul                       X
                                                            1
                                                   ETA – WIA
                    Mallo, Francis                          X         X           $1,720
                    Veret, Bianca                           X
                                                            2         1           $1,720
                                                  ETA – WOTC
                    Eison, Myra                                       X         $302,292
                                                                      1         $302,292
                                                  Benefit Plan
                    Cacioppo, Anna                          X
                    Cacioppo, Charles, Jr.                  X
                    Deangelis, Peter                                  X           $2,000
                    Decter, Kenneth                         X
                    Freeman, Steven                         X
                    “Sealed”                                X
                    Gaskell, Kimberly                       X
                    Gelson, William                         X
                    Hyde, John                              X
                    Ihle, Paul                              X
                    Jairath, Ravindra, M.D.                 X
                    Johnston, Mark                          X         X          $43,583
                    Kirkland, Dean                          X
                    Kistling, Thomas                        X
                    Kupfer, Charles                         X
                    Kvasnicka, Philip                       X
                    Lontine, John                                     X           $1,000
                    Manous, Peter                           X
                    Manzo, Ronald                           X
                    Mayhew, Robert                                    X           $1,000
                    Mendelsohn, Lawrence                              X         $115,554
                    Mutino, Joseph                          X
                    Oliveira, Elario                        X
                    Pastrick, Kevin                         X
                    Payne, Bruce                            X         X           $6,877
                    Perez, Joseph                                     X         $572,103
                    Sartoski, Ryan                          X         X           $1,459
                    Soto, Marta                                       X         $274,417
                    Talbott, Dennis                                   X           $1,000
                    Tucker, Darrell                         X
                    Uhrin, Richard                                    X          $381,201
                    Vitale, Martin                                    X           $15,000
                    “Sealed”                                          X        $2,200,000
                    Wiederhorn, Andrew                      X         X        $2,025,000
                    Zerth, Barbara                          X
                    Zerth, Richard                          X
                                                           26        14        $5,640,194



Semiannual Report to the Congress                                                                   54
April 1, 2004–September 30, 2004
                                                                              Investigative Case List
              Appendix


                                                      Convicted   Sentenced    Monetary
                                                Internal Union
                    Aginsky, David                         X
                    Angelone, John                                   X
                    Barnwell, William                    X           X          $19,388
                    Bondi, Richard                                   X            $250
                    Boyd, Byron, Jr.                                 X         $110,000
                    Brennan, Thomas                      X
                    Browne, Walter                       X
                    Cassarino, Primo                                 X
                    Ciccone, Anthony                                 X        $3,200,000
                    Davis, Arenia                        X
                    Dennis, Ralph                                    X          $47,000
                    Devaney, Patricia                    X
                    Gotti, Peter                                     X        $3,774,250
                    Gotti, Richard G.                                X           $12,000
                    Gotti, Richard V.                                X           $13,500
                    Hernando, Ileana                     X
                    Hubbard, Gerhard                     X           X          $18,102
                    Levine, Robert                                   X         $193,656
                    Little, Charles                                  X         $110,000
                    O’Neil, Kevin                                    X          $35,000
                    Phillips, Jennifer                               X          $35,141
                    Rookard, John                                    X          $45,100
                    Stewart, Linda                                   X          $65,005
                    Williamson, David                   X            X           $3,200
                    Williamson, Sandra                  X            X
                                                        10           19       $7,681,592
                                             Labor Management
                    Bader, Lawrence                     X
                    Borazzo, Robert                     X
                    Cacace, Joel Jr.                                 X         $166,533
                    Carrara, Carl, Sr.                   X           X             $400
                    “Sealed”                                         X         $347,342
                    Coriasco, Richard                                X         $256,697
                    Cross, Wayne                         X
                    Culotta, Phil                        X
                    DeRoss, Jack                                     X        $1,173,000
                    DeRoss, Jamie                                    X           $40,100
                    DJH Mechanical Associates, LTD       X
                    Diminno, Morris                                  X             $400
                    “Sealed”                             X
                    Fawell, Scott                        X
                    Fidler, Allan                        X           X             $500
                    Forrest, Linda                       X           X         $158,100
                    Geraghty, Raymond                    X
                    Greco, Andrew                        X
                    Gregorio, Lou, Jr.                   X
                    Guidice, Anthony                                 X
                    Kilcullen, Sean                                  X          $19,162
                    “Sealed”                             X
                    Lepore, Raymond                      X
                    Liquori, Frank, Sr.                  X
                    Liquori, Frank, Jr.                  X


Semiannual Report to the Congress                                                                   55
April 1, 2004–September 30, 2004
                                                                              Investigative Case List
              Appendix


                                                    Convicted     Sentenced    Monetary
                    Lyles, Otho                        X
                    Majuri, Charles                                  X
                    McGowan, James                      X            X         $237,810
                    Nguyen, Hua                         X            X         $480,425
                    Perry, Brian                        X
                    Polito, Anthony                                  X         $386,373
                    Proto, Anthony                      X
                    “Sealed”                            X
                    “Sealed”                            X
                    “Sealed”                            X
                    Ronan Potts, LLC                    X
                    Saah, Richard                       X
                    Segreti, John                       X            X
                    “Sealed”                            X
                    Troy, Richard                                    X           $74,782
                    Vincent, Steven                                  X             $100
                    “Sealed”                                         X           $20,000
                    Weber, Dorothy                      X            X         $543,278
                                                       30            20       $3,905,002
                                            Worker Exploitation
                    Diaz-Lopez, Maritzana                            X
                    Espinoza-Cruz, Angel                X
                    Garcia-Burgos, Pedro                             X         $136,240
                    Herri, Herri                        X            X             $100
                    “Pre-trial Diversion”               X            X
                    “Pre-trial Diversion”               X            X
                    Lakireddy, Prasad                                X          $20,100
                    Lopes, Braulio                      X
                    Ma, Yu                              X            X          $50,000
                    Pseng, Kuochan                      X            X         $175,000
                    Yang, Kevin                         X            X
                                                        8            9         $381,440




Semiannual Report to the Congress                                                                   56
April 1, 2004–September 30, 2004
                                                                                                               OIG Hotline Activity
                 Appendix


The OIG Hotline provides a communication link between the OIG and persons who want to
report alleged violations of law, rules, or regulations; mismanagement; waste of funds; abuse of
authority; or danger to public health and safety. During this reporting period, the OIG Hotline
received a total of 2,755 contacts. Of these, 2,396 were referred for further review.

Allegation Reports by Source:
Hotline Operations–Calls, Correspondence, and
 Walk-ins from Individuals or Organizations.................................................................................2,709
Correspondence from Congress ........................................................................................................4
Correspondence from DOL Agencies .................................................................................................9
Letters from Non-DOL Government Agencies ..................................................................................19
Incident Reports from DOL Agencies .................................................................................................7
Reports by OIG Components..............................................................................................................7
Total ............................................................................................................................................2,755

Allegation Reports by Referral:
Referred to OIG Components ...........................................................................................................87
Referred to DOL Program Management......................................................................................1,098
Referred to Other Agencies .........................................................................................................1,211
Total ............................................................................................................................................2,396




Semiannual Report to the Congress                                                                                                             57
April 1, 2004–September 30, 2004
